<html>
<title> - FEDERAL PROTECTIVE SERVICE REFORM ACT OF 2000</title>
<body><pre>[Senate Hearing 106-967]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-967
 
                      FEDERAL PROTECTIVE SERVICE 
                           REFORM ACT OF 2000
=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                   TRANSPORTATION AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION
                               __________

                           SEPTEMBER 28, 2000
                               __________
 
                                   ON

                                H.R. 809

 A BILL TO AMEND THE ACT OF JUNE 1, 1948, TO PROVIDE FOR THE REFORM OF 
                     THE FEDERAL PROTECTIVE SERVICE

  Printed for the use of the Committee on Environment and Public Works








                        U.S. GOVERNMENT PRINTING OFFICE
                                WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

               one hundred sixth congress, second session
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                  GEORGE V. VOINOVICH, Ohio, Chairman

JOHN W. WARNER, Wyoming              MAX BAUCUS, Montana
CHRISTOPHER S. BOND, Missouri        DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut

                                  (ii)

  












                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 28, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Lieberman, Hon. Joseph I. U.S. Senator from the State of 
  Connecticut....................................................    26
Moynihan, Hon. Daniel Patrick, U.S. Senator from the State of New 
  York...........................................................     4
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     1

                               WITNESSES

Bellew, Steven, Vice Chairman, Fraternal Order of Police, Federal 
  Protective Service Protective Committee, Dallas, TX............    20
    Letter, LESO program.........................................    38
    Prepared statement...........................................    35
Gallay, Joel S., Deputy Inspector General, General Services 
  Administration.................................................    10
    Prepared statement...........................................    30
Peck, Hon. Robert A., Commissioner, Public Buildings Service, 
  General Services Administration................................     8
    Letter, Celebrezze Federal Building..........................    30
    Prepared statement...........................................    28
Roth, Hon. Jane Roth, Judge, U.S. Court of Appeals, Wilmington, 
  DE.............................................................    18
    Prepared statement...........................................    34
    Responses to additional questions from Senator Voinovich.....    35
Traficant, Hon. James A.. Ohio, U.S. Representative from the 
  State of Ohio..................................................     5
    Prepared statement...........................................    27

                          ADDITIONAL MATERIAL

Statements:
    International Brotherhood of Police Officers, Kenneth L. 
      Lyons......................................................    39
    National Federation of Federal Employees, Anthony Maldonado..    40
Text of H.R. 809, An Act to amend the Act of June 1, 1948, to 
  provide for reform of the Federal Protective Service...........    44

                                 (iii)

  












             FEDERAL PROTECTIVE SERVICE REFORM ACT OF 2000

                              ----------                              


                     THURSDAY, SEPTEMBER 28, 2000,

                                       U.S. Senate,
               Committee on Environment and Public Works,  
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:37 a.m. in 
room 406, Senate Dirksen Building, Hon. George Voinovich 
(chairman of the committee) presiding.
    Present: Senators Voinovich, Baucus, and Moynihan.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Good morning. The hearing will come to 
order.
    First of all, I would like to thank our witnesses for 
appearing before the subcommittee today to testify on H.R. 809, 
the Federal Protective Service Reform Act of 2000. I would 
especially like to thank Congressman Traficant for taking the 
time to come here this morning and discuss his legislation. In 
Panel II, I would like to welcome Bob Peck, Commissioner of the 
Public Buildings Service at the General Services 
Administration, and Mr. Joel Gallay, Deputy Inspector General 
of the GSA. And in Panel III, I would like to welcome the 
Honorable Jane Roth of the U.S. Court of Appeals, located in 
Wilmington, Delaware, and Mr. Steven Bellew, Vice Chairman of 
the Fraternal Order of Police, Federal Protective Service Labor 
Committee.
    The FPS has been a part of the Buildings Service of the GSA 
since 1949. The Public Buildings Service provides work 
environments for over one million Federal employees nationwide, 
and serves as a builder, developer, lessor, and manager of 
federally owned and leased properties, properties currently 
totally more than 280 million square feet of office, storage, 
and special space. The Public Buildings Service provides a full 
range of real estate services, property management, 
construction and repair, security services, property disposal, 
and overall portfolio management.
    The bombing of the Murrah Federal Building in Oklahoma 
City, OK, in 1995 was a tragic wake-up call as to the need to 
enhance security at Federal office buildings in the United 
States. Shortly after the incident in Oklahoma City, the 
President directed the Department of Justice to assess the 
vulnerability of Federal office buildings particularly to acts 
of terrorism and other forms of violence. A number of other 
Federal entities participated in the process which resulted in 
a number of recommendations to upgrade security at Federal 
facilities nationwide.
    These recommendations were described in the Department of 
Justice's final report issued on June 28, 1995, entitled: 
Vulnerabilities Assessment of Federal Facilities. Included in 
the report was a recommendation that consideration should be 
given to elevating the FPS to a different level within the GSA.
    The bill we are discussing this morning, H.R. 809, would 
essentially codify that recommendation by creating a separate 
service within GSA for the Federal Protective Service. The 
separate FPS would have its own commissioner who would have 
direct command and control and authority over the FPS regional 
directors in each of the 11 geographic regions of the GSA. 
Currently, the Assistant Commissioner of the Federal Protective 
Service does not have line authority over the FPS Regional 
Directors. Rather, the FPS Regional Directors report to the 
Assistant Regional Administrators for the Public Buildings 
Service. The Assistant Regional Administrators in turn report 
to the Regional Administrators who are responsible to the GSA 
Administrator directly.
    I believe H.R. 809 addresses a serious problem with the 
current organizational structure in GSA; mainly, the line of 
command. Although the current Assistant Commissioner of FPS has 
nearly three decades of law enforcement experience, he only can 
issue guidance and has no authority over the FPS people in the 
11 regions throughout the country. Also, the FPS regional 
directors often do not have law enforcement experience and they 
report to the FPS Assistant Regional Administrator or a PBS 
Regional Administrator who in all likelihood does not have law 
enforcement experience either.
    The bill requires that the newly created Commissioner of 
the Federal Protective Service and the FPS Regional Directors 
meet minimum requirements for law enforcement experience. While 
creating the Federal Protective Service as a free-standing 
service within GSA, as would occur under H.R. 809, is one way 
to address the line of command problem, I do not believe that 
this is necessary or prudent.
    First, I think it is important to clarify that FPS 
currently performs two functions: security and law enforcement. 
However, the security function of FPS cannot be easily 
separated from the real estate function of the Public Buildings 
Service. For example, the security function which includes such 
activities as placement of security equipment and technology, 
building design and operation, should be fully integrated with 
the building management activities of the PBS.
    Second, I believe the line of command can be best addressed 
without breaking the link between PBS and FPS. I believe this 
objective can be achieved by improving the organizational 
structure of PBS to provide a clear linkage of authority 
between the Assistant Commissioner of FPS with the Regional 
Directors. However, I do agree that the Assistant Commissioner 
and Regional Directors should meet certain minimum requirements 
in terms of law enforcement experience.
    I am pleased to see that FPS has undertaken several 
initiatives to improve the effectiveness of FPS. For instance, 
I understand that PBS has created a new Law Enforcement and 
Security Officer position which is designed to be uniquely 
suited to meet the security and law enforcement needs for 
protecting Federal buildings.
    I would like to hear whatever thoughts our witnesses may 
have on this initiative. I also look forward to hearing from 
our witnesses this morning on how we can provide a top-notch 
security for our Federal buildings and whether H.R. 809 
accomplishes the goal. In addition, I hope our witnesses will 
be concise as to the provisions of this bill Congress could 
conceivably enact in the short time remaining before we 
adjourn. We are at the end right now. What part of this could 
we get agreement on and get done.
    Again, I thank you for coming today and I look forward to 
your testimony and responses to any of the questions that may 
follow.
    I am pleased to have here with us today Senator Baucus and 
Senator Moynihan. I will call on Senator Baucus first.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman. First, I welcome 
all the witnesses, appreciate your contributions here. Second, 
I thank you, Mr. Chairman, for holding this hearing.
    The Federal Protective Service clearly is of utmost 
importance. After all, they are the ones that secure all our 
Federal buildings. And after the Oklahoma incident, we are 
paying even more attention to the FPS to make sure that it is 
performing its duties as well as it possibly can.
    As I understand it though, there are some who feel that 
there is a bit of a disconnect between the Assistant 
Commissioner of the Federal Protective Service in Washington 
and the officers in each of the 11 regions. This bill attempts 
to change that by establishing a chain of command, as I 
understand it. I also believe that connecting the Assistant 
Commissioner directly to his Regional Directors is positive. 
And as you have said, Mr. Chairman, establishing a minimum set 
of criteria of experience for FPS Directors also makes sense. 
And there are other provisions of the bill which I think are 
also good.
    But I am not sold, frankly, on the need to make the Federal 
Protective Service a separate entity in the Public Buildings 
Service. Unless I am shown the contrary, my sense is that is 
going to create more confusion and not less. Nevertheless, I am 
not the expert on this. That is why we have witnesses; they 
are. And I look forward to their testimony.
    Senator Voinovich. Thank you, Senator.
    Senator Moynihan.
    Senator Baucus. Before I finish, Mr. Chairman, I would like 
to just honor our wonderful Senator from New York who more than 
other Senator in many, many decades has left his imprint on 
public buildings in a very solid, wonderful way. I am fond of 
saying, I think it is true, no public servant in the United 
States of America has left a more positive legacy in 
magnificent public buildings in our country's history since 
Thomas Jefferson. And if you look at both ends of Pennsylvania 
Avenue, up and down, if you look up in New England, other parts 
of our country, it is clear. We are very honored, Senator, and 
very thankful for all that you have done for our country.
    Senator Moynihan. You are very generous, sir.
    Mr. Chairman, I do not think I should add to that.
    [Laughter.]

OPENING STATEMENT OF HON. DANIEL PATRICK MOYNIHAN, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Moynihan. But if you look at the upper part of 
Pennsylvania, you find guardhouses and barriers and policemen 
and all the things that you do not associate with an open 
society. We have to balance that. And we had an example the 
other day which we should keep in mind. I think Bob Peck used 
to be a member of our committee staff, Major Peck he is in the 
Army Reserves. But a few days ago in London a mortar shell was 
fired into the upper stories of the building that houses the--
it is probably where ``M'' used to work in the James Bond 
movies.
    [Laughter.]
    Senator Moynihan. And they have recovered the apparatus. It 
was Russian made, which suggests that it was probably an Irish 
group. It weighs eight pounds, can be fired in 10 seconds, and 
you disappear. So keep that in mind as we try to build walls 
that mortars can come over. There is no such thing as absolute 
security. But thank you for your generosity and your 
statements.
    Senator Voinovich. Thank you for being here, Senator 
Moynihan. I remember even the White House, the days that you 
were able to walk to the White House and walk around the White 
House, the barricades are now up and it looks like we are under 
siege. With the way that the environment is today, it does make 
I think a sad commentary on our society.
    Senator Moynihan. Could I make one point, sir. The first 
fence around the White House was put up by Theodore Roosevelt 
who was tired to seeing the civil servants from State, War and 
Navy walk across his lawn to have lunch at the Ebbitt's Grill.
    [Laughter.]
    Senator Moynihan. And it was just high enough that you 
really could not step over it. That was the only purpose. See 
how far we have come.
    Senator Baucus. I wonder, Senator, if there is some way to 
reopen Pennsylvania Avenue in front of the White House, maybe 
on a limited basis.
    Senator Moynihan. The Washington Post had a fine editorial 
this morning saying that.
    Senator Baucus. Oh, really?
    Senator Moynihan. Our former colleague, Bob Dole is coming 
up with a Federal-City Council effort, and I have joined with 
our Representative from Washington. And we have a plan, you 
bet.
    Senator Voinovich. Again, we want to thank you, 
Representative Traficant, for coming here this morning, and we 
look forward to your testimony.

STATEMENT OF HON. JAMES A. TRAFICANT, JR., A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Traficant. I appreciate it. I would like to start out 
by saying this Senate hearing is out of control with some of 
your small talk, but I have enjoyed it.
    [Laughter.]
    Senator Voinovich. You ought to come over more often.
    Mr. Traficant. Yes, it is a little more loose over here.
    I want to compliment you, Mr. Chairman, for the great job 
that you have done and the continuing effort that you have 
placed on our State and the Nation. And having worked in the 
past in the field of public buildings, having a long 
relationship with Senator Baucus, Senator Baucus is tough, to 
say the least, but he was always vigilant as to what really was 
best for America, and we respected that, and Mr. Mineta, Mr. 
Oberstar, and I have supported you, Senator, as well as Senator 
Moynihan.
    As far as Senator Moynihan, I can remember way back where 
his ideas for America and the many people that followed those 
ideas led to better cities, led to people having opportunities. 
I just missed the tribute on the House floor to you, Senator, 
and I wanted you to know that I think you have done a 
tremendous job. I think that everything that has been said 
about you has been good and you have always done it with 
humility and with grace. Now, having said that, I want you to 
change your position with this issue on Bob Peck.
    [Laughter.]
    Mr. Traficant. Let me get on to my statement. I have a 
statement that I would ask unanimous consent to be included in 
the record.
    I was chairman of this subcommittee and I was astounded to 
find out that in Oklahoma City there were three Federal 
buildings being guarded by one contract guard. The Alfred P. 
Murrah Building was a light blinking on and off for some 
terrorist to make a statement. And after the review of that, 
including the Justice Department's, task force reviews, 
independent individual studies, they came to the same 
conclusion that our subcommittee came to and ultimately the 
House of Representatives--that real estate people really cannot 
be responsible for law enforcement functions.
    This bill would have been on a fast track and would have 
been law had we made that deal and not left FPS responsible to 
PBS, the real estate arm. And the argument has always been that 
if you do that, you will take away the coordination. It has not 
done that with the Capitol Police and the Architect of the 
Capitol.
    This bill will raise the number of FPS agents. As you know 
and have read and you have stated in your opening statement, it 
will increase and mandate training and standards of those 
contract guards, many of whom are former policemen, Senator, we 
are not saying they are not capable, but it would ensure 
uniformity.
    Our bill deals with looking at parity of other law 
enforcement personnel with significant functions in a Federal 
system and the whole pension network.
    But the major issue continues to revolve around, Who is 
responsible? And as a former sheriff, let me say that in all 
the years I have been in Washington, I do not think we have had 
anybody better, more straightforward than Mr. Peck. I think he 
has done a tremendous job. I do not know what his status will 
be in the future with the Presidential election, but there are 
many people who realize his tremendous contribution. But Mr. 
Peck is a real estate man.
    The statement I am making to the Senate here today is that 
the Nation is watching. These great monuments of America's 
freedom, our buildings have become the prime targets. See, I 
believe there is a way of having a structure of law enforcement 
systematic designated approach with a coordinated effort, as 
you have between the Capitol Police and the Architect of the 
Capitol, to coordinate security concerns and needs. But once 
real estate decisions become paramount in the financing 
structure of limited Federal dollars, there is where you have 
the dichotomy that could endanger public lives. That is our job 
here is to protect lives. The courthouses are protected by the 
Marshals Service. They have a fine relationship with the 
courts. The Capitol Police have done a fine job, they have a 
fine relationship with the Architect of the Capitol. And there 
is no reason why in streamlining a law enforcement structure we 
cannot have that same type of relationship.
    Let me say, the law enforcement community in America 
supports this bill. Every study that has been undertaken by the 
Justice Department, including that recommendation for 
separation with coordinated efforts, supports this. And all of 
the other commission studies support that move.
    The point I am making, I am not going to belabor the time 
and I will be present here for questions, is basically this. 
This bill would be law were it not for that provision. And the 
reason why you are having this hearing is there are those in 
America who believe it is that important that the future 
security of Federal buildings rests on the management apparatus 
of a law enforcement perspective more than a real estate 
perspective. There is no reason in the world why we cannot 
coordinate the two, as we have done in other law enforcement/
security issues in our Nation's Capitol.
    So I thank you for having me here. I believe this bill 
should be passed. And if the Senate in its wisdom finds that 
there has to be some machinations and changes, we would be 
willing to talk. But to let this sit, let there be one more 
Alfred P. Murrah and they will lay it at our doorstep--What 
have you done? I think we should make that change. Thank you.
    Senator Voinovich. Thank you, Congressman Traficant.
    Are there any questions for Congressman Traficant?
    [No response.]
    Mr. Traficant. None? Are you already on a fast track to 
side with Peck? I urge you to take into consideration my 
complete written text. Look at the supporting documentation 
from the studies that have been done, and also at the parallel 
examinations of other entities who have relationships while 
being free-standing.
    Senator Voinovich. I think that we understand the purpose 
of this legislation. It was just brought to my attention again 
today where in Cleveland they were discussing the construction 
of a child care center. A couple of years ago it was 
recommended that the center be placed above a loading dock and 
the word went out that this was not the place for it to be 
located. Then a couple of years later, it is my understanding 
that they are now contemplating putting it back where they said 
it should not go because of security reasons. And the big issue 
was that placing it in some other location would incur a cost 
of some $1.8 million. And so you get the tension between the 
security of the children and the building versus the cost of 
putting it someplace else. It seems to me that when a decision 
like that has to be made you need to look at the security issue 
first, and if you cannot resolve that and you do not have the 
money to do the other thing, then you do not do the other thing 
and you do not have a child care center unless you are willing 
to spend the money.
    I think, as I have observed too often around here, we are a 
little bit penny-wise and pound-foolish. We have some 
tremendous unmet needs today. I think a child care center is an 
unmet need. I think that we should have child care facilities 
in our Federal facilities. I promoted that while I was Governor 
of Ohio. That costs money. You want to make sure that they are 
put in secure places but we do not seem to have money to do 
that. But we do have money to go out and spend it on all kinds 
of new programs that are coming along that are, frankly, more 
popular in the polls than it is to deal with these unmet needs. 
As a policy thing, colleagues, I think that it is about time we 
did a study of the unmet needs of the Federal Government 
because they are tremendous and we need to address those before 
we go off getting into some new areas of responsibility.
    But I understand the problem, Congressman.
    Mr. Traficant. Can I respond briefly to the Cleveland 
issue?
    Senator Voinovich. Sure.
    Mr. Traficant. Were it not for individuals involved with 
you and your staff, Congressman LaTourette, a dollar issue 
could have placed the child care center near the loading dock, 
the most vulnerable section of the building. And certainly a 
very powerful statement could have been made by some terrorist. 
But dollar issues, in a crunch time of Washington budget 
mashing, sometimes safety may not necessarily be the focus, 
dollars become the focus. Cleveland is an excellent example. 
And the law enforcement community made the recommendation to 
not go forward with that child care center for those obvious 
security reasons.
    We cannot have the dichotomy and confusion of 
decisionmaking on these types of issues. These are issues 
certainly where qualified individuals, like Mr. Peck, can sit 
down with the law enforcement personnel and plan and promulgate 
strategies and actions that protect lives. This is our bottom 
line here. We build great facilities. We must protect them now. 
I think that is the major difference here.
    I do not want this committee to believe under any 
circumstances that we do not have a fine General Services 
Administration or a fine Public Buildings Service. Nor do I 
want you to think that we do not have one of the finest 
directors of the Public Buildings Service. We are very 
satisfied with him.
    Senator Voinovich. Thank you, Congressman.
    Senator Voinovich. Our second panel is Robert A. Peck, 
Commissioner of Public Buildings Service and General Services 
Administration, and Mr. Joel S. Gallay, Deputy Inspector 
General, General Services Administration.
    Mr. Peck, welcome.

  STATEMENT OF ROBERT A. PECK, COMMISSIONER, PUBLIC BUILDINGS 
  SERVICE AND GENERAL SERVICES ADMINISTRATION; ACCOMPANIED BY 
   CLARENCE EDWARDS, ASSISTANT COMMISSIONER FOR THE FEDERAL 
                       PROTECTIVE SERVICE

    Mr. Peck. Thank you, Mr. Chairman, and members of the 
subcommittee. And I would like to thank Mr. Traficant for his 
kind remarks about me and the GSA. I have a statement I would 
like to submit for the record. I would just like to note that 
with me today is Clarence Edwards, our Assistant Commissioner 
for the Federal Protective Service, and I would like to submit 
his resume for the record also, if I might. I will summarize my 
statement.
    We could not take security more seriously in the Public 
Buildings Service. The Murrah Building was our building. I have 
to tell you, I was not satisfied with the management of our 
security function or the Federal Protective Service when I took 
this job. I cannot claim to be a police expert. I grew up in a 
military police family, however, and I have had some security 
training in the Army. I care about this. It is not an easy task 
running a building that is supposed to be open to the public 
and yet secure. And so, I have summarized in my statement what 
we have done.
    On the issue of money, I will just mention that we have 
tripled our spending on security since the Oklahoma City 
incident to more than $250 million per year. We have almost 
doubled the number of uniformed officers, and we have doubled 
the number of contract guards. The fact is that the deployment 
in Oklahoma City was a deployment recommended by the Federal 
Protective Service at the time. And I would note that it is the 
real estate managers of the Public Buildings Service and I who 
came together several years ago to say we need to restructure, 
reorganize, and intensify the training for security that we 
have in our Federal Protective Service, because that is one of 
the core functions that the tenants and the public tell us they 
want us to perform.
    So, No. 1, it is not the case that having at some point 
real estate managers in the chain of command is a detriment to 
security. Just as with the military, it is important that 
civilians and those accountable to the public be able to 
determine the mission, though not necessarily the organization 
and tactics in the military or the law enforcement community.
    And so what we have in GSA, I just want to be clear, the 
organization we have today of the Federal Protective Service is 
parallel to that of the Public Buildings Service. In each of 
our regions, the security personnel--notice I keep saying 
``security'' and not law enforcement--our security and law 
enforcement personnel report to a regional director of the 
Federal Protective Service. That regional director does report 
to a regional Buildings person. It is the same chain of command 
that we have on the real estate side. Perhaps that itself 
should change.
    But taking the Federal Protective Service out of the Public 
Buildings Service would in fact go in absolutely the wrong 
direction, because what we need to do is integrate the design 
and management of our buildings with our imperative for 
security. By the same token, our security personnel need to be 
working hand-in-hand with architects, designers, engineers, and 
building managers.
    Unfortunately, it is just a fact of human life, human 
nature, and large organizations that if you put people in 
separate structures they just have a hard time working 
together. It is astounding to me, I would note to you, that the 
Public Buildings Service is actually not established in 
statute. The Administrator of General Services has the 
authority to set up and abolish services within GSA. It is 
amazing how hard it is for us to get cooperation between the 
Public Buildings Service and the Federal Supply Service, two 
agencies in the same organization but with headquarters in 
different buildings, different commissioners, different lines 
of reporting responsibility. And I just worry that if we 
created a separate FPS we would have the same basic problem.
    As I said, a lot of the impetus for change in FPS has come 
out of the Public Buildings Service and our looking to see what 
we could do for security. We thought several years ago when we 
started what we call the new FPS that our officers and their 
commanders had not been given a clear mission charge, which is 
the first thing you have to do in a military or paramilitary 
organization. We said the mission is principally security. And 
we have intensified training for that. We are cross-training 
everyone so that they are both law enforcement and security 
personnel. That is what is important in this issue and I hope 
you will not lose site of it. And I was encouraged to hear your 
statement and that of Senator Baucus.
    Because I want to hold to my time, may I just mention that 
there are a number of provisions of this bill that with some 
modifications we think could be helpful. At least one provision 
as is we think is very important. It is really important that 
we clarify the authority of our offices regarding arrest and 
investigative powers in and around our buildings. I am happy to 
see that the legislation would expand our jurisdiction, if we 
get the consent of local police departments, to areas adjacent 
to Federal property. That is essential to our officers and 
agents carrying out their jobs, and I hope you will do it.
    A number of other provisions I think, if amended, could be 
quite helpful to us. I would note one thing. In expanding the 
authority of our officers, the bill unfortunately creates the 
anomaly that our criminal investigators, our special agents 
would have lesser investigative and arrest powers than the 
officers. We think with a simple fix, and we could recommend 
some language to you, we could fix that mistake.
    We think establishing a specific number of police officers 
is a mistake. I do not know if 730 is too high or too low, 
quite honestly. We are doing a staffing study and I believe 
eventually we will have between law enforcement, security 
officers, and FPOs many more than 730 officers. But I do not 
know where that number comes from. In almost no instance of 
public policy does it make sense to set a number.
    Finally on pay and benefits, which I think is very 
important. We have been trying very hard, including in 
discussions with the Office of Personnel Management, to 
increase the pay and benefits that our officers have. I think 
that the way this bill is written would try to do that. It is a 
1-year tying of our pay scale and benefits to the U.S. Capitol 
Police. A lot of our positions do not seem commensurate with 
those and we think we may actually be able to get our officers 
better pay and benefits by not tying to that. But we would like 
to have some help in legislation in getting the pay and 
benefits increased.
    So, again, I would like to work with your staff, if you 
move this bill, to try to improve some of those provisions. And 
I am happy to answer any questions that you have.
    Senator Voinovich. Thank you.
    Mr. Gallay.

STATEMENT OF JOEL S. GALLAY, DEPUTY INSPECTOR GENERAL, GENERAL 
    SERVICES ADMINISTRATION; ACCOMPANIED BY EUGENE WASZILY, 
   ASSISTANT INSPECTOR GENERAL FOR AUDITING; JIM HENDERSON, 
         ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS

    Mr. Gallay. Good morning, Mr. Chairman. I am Joel Gallay, 
Deputy Inspector General at GSA. I would like to introduce two 
people with me today: Eugene Waszily, Assistant Inspector 
General for Auditing; and Jim Henderson, Assistant Inspector 
General for Investigations. I have my full statement which I 
would like to submit for the record and would just summarize 
that this morning.
    I appreciate the opportunity to come before the 
subcommittee to discuss the views of the Office of Inspector 
General on H.R. 809. Our office has done a significant amount 
of work in recent years relating to building security in 
general, and Federal Protective Service operations in 
particular. Much of this work was spurred by initiatives to 
upgrade Federal building security after the bombing of the 
Alfred Murrah Building in Oklahoma City.
    The centerpiece of the bill under your consideration today 
is the proposal to remove FPS from PBS and establish it as a 
separate operating service of GSA. This new service would be 
headed by a commissioner who would be appointed by and report 
directly to the GSA Administrator.
    We agree that improvements are needed in the existing FPS 
structure. We strongly believe that there needs to be a direct 
chain of command and line of authority between the FPS 
headquarters in Washington and FPS field personnel. We also 
support the explicit requirements in the bill for the FPS head 
and the assistant commissioners and regional directors to have 
direct law enforcement experience. We believe these provisions 
are particularly critical insofar as FPS performs a law 
enforcement function.
    Law enforcement agencies which operate within larger parent 
organizations, like the Office of Inspector General, are 
traditionally staffed by professional law enforcement personnel 
with a direct chain of command from the headquarters level to 
the field level. This structure assures more effective 
oversight of the use of law enforcement authorities and 
consistent application of polices and procedures, particularly 
important with respect to matters such as jurisdiction and the 
use of deadly force.
    We think that most outsiders would be surprised to learn, 
as you pointed out, Mr. Chairman, that while the Assistant 
Commissioner here in Washington is the nominal ``head'' of the 
FPS, he can only issue policy guidance. He does not have 
command and control over the FPS Directors in the 11 GSA 
regions. These Directors, most of whom currently do not have 
prior law enforcement experience, report to Assistant Regional 
Administrators for PBS in the regions and not to FPS 
headquarters.
    Two of our audits serve to illustrate some of the problems 
inherent in this organizational structure. In our examination 
several years ago of the criminal investigator program within 
FPS, we found that criminal investigator activities in the 
field were generally operating in inconsistent ways, with no 
program accountability. We reported on problems like unbalanced 
staffing. For example, one region had a ratio of 1 criminal 
investigator for 42 buildings, while another had 1 criminal 
investigator for 641 buildings. We also reported on 
inconsistent investigative approaches and found that in some 
regions these inconsistencies raised real concerns about 
whether the safety of Federal employees was being compromised.
    Similar problems were noted in another audit we issued in 
March of this year where we examined FPS' management of the 
contract guard program. FPS central office has been trying to 
create a national program with standards for areas like guard 
training, weapons, guard eligibility, and suitability to be 
applied to all GSA guard contracts. Our review of this program 
concluded that an absence of controls and oversight had led to 
operational breakdowns at the regional levels. For example, we 
found hundreds of guards were on post without valid suitability 
determinations; armed guards were on post without any firearms 
training or they were overdue for firearms qualifications; and 
guard services in one region were being acquired through a 
short-cut method without being subject to critical program 
requirements.
    In addition to these formal audits, we have encountered a 
number of situations over the last few years involving regional 
FPS employees acting in violation of established national 
policy. These situations included several instances of FPS 
officers carrying firearms while off duty; a number of 
instances of FPS officers carrying firearms without having been 
properly qualified; and an FPS supervisor in one region 
authorizing the issuance of shotguns, which FPS officers are 
neither qualified with nor authorized to carry.
    The clear message in these audits and other reviews is that 
FPS would greatly benefit from an organizational overhaul to 
improve its ability to implement consistent policies and 
procedures. By requiring law enforcement experience at both the 
central office level and at the supervisory level in the 
regions and by providing that the FPS head would appoint the 
regional directors in the field, H.R. 809 takes several steps 
toward this organizational overhaul.
    We do not believe, however, that FPS necessarily needs to 
be removed from PBS in order to effectuate the changes in chain 
of command for purposes of strengthening FPS' law enforcement 
functions. In our view, these changes can be made within PBS. 
This would achieve the much-needed improvements in command and 
control over law enforcement functions while meeting the 
coordination and other concerns PBS has with the proposal to 
remove FPS entirely.
    Under H.R. 809, the new FPS Commissioner would be 
designated as the ``security official of the United States'' 
for the protection of GSA-controlled buildings. We believe that 
this broad designation is generally unworkable and would add 
confusion to what are in fact legitimate and important security 
functions that are exercised by PBS. Security is a multi-
faceted area and involves aspects of building location, design, 
planning, and operations. Building location, design, and 
planning would clearly seem to be generally within the province 
of PBS. On an individual building operations level, building 
security and safety is the responsibility of FPS and the 
Building Security Committee for that building, with PBS 
support.
    The bill's proposed removal of FPS from PBS and its 
designation of the FPS head as the ``security official for the 
United States'' leave unanswered several critical questions, 
especially: What security functions would remain in PBS and 
what functions would be transferred to FPS? Clearly, building 
design should remain the responsibility of PBS, while police 
activities and supervising guard forces should be the 
responsibility of FPS. In between, however, lies a gray area 
where the decisions on division of responsibility and transfer 
of functions are not very easy.
    We believe that, even under the current organization, 
better coordination of the building security function is 
needed. We have concerns that making FPS a stand alone service 
in GSA may not be an immediate cure for, and may even 
exacerbate, some of the problems we have seen in recent years. 
For example, we issued a series of alert reports highlighting 
serious problems in the agency's building security enhancement 
program undertaken in the aftermath of Oklahoma City. 
Ultimately, the problems there stemmed from a failure of 
coordination within the FPS organization and between FPS and 
PBS. Whatever organization may result from this legislation or 
from GSA's own efforts, a strong linkage between FPS and PBS 
needs to be developed and maintained in the area of building 
security.
    I would like to turn just briefly to the bill's provisions 
on law enforcement authority. H.R. 809 would give FPS special 
police, renamed ``police officers,'' general law enforcement 
authority, including the authority to carry firearms, seek and 
execute arrest and search warrants, and make warrantless 
arrests under specified circumstances. We support this 
provision. We believe it is a much-needed clarification of the 
uniformed officers' authorities.
    The bill also would make minor changes to the law 
enforcement authorities exercised by the nonuniformed officers 
of FPS. But, as Commissioner Peck pointed out, the way the bill 
is drafted there is an anomaly that would be produced. We know 
of no reason that would call for a differential between the 
authorities given to the uniformed officers and nonuniformed 
officers. We, too, would advocate changing the bill to give the 
new special agents the same law enforcement authorities as the 
new police officers.
    Mr. Chairman, that concludes my summary of the testimony. I 
would be pleased to answer any questions.
    Senator Voinovich. Thank you.
    I would like to start off with the Cleveland situation. 
Apparently there was some disconnect there in terms of 
decisionmaking. If the regional people were responsible to the 
Federal Protective Service and Commissioner, a decision would 
have been made that is not where that child care facility 
should be built. Obviously, somebody else came along and said, 
no, I think we can build it there, it is not such a big 
problem, and we are going to put it there because maybe it is 
going to save us $1.8 million and we need to have the facility. 
Wouldn't this legislation help clarify that kind of a situation 
in that the thing would have probably been bounced up to 
somebody in Washington and they would have discussed it and 
decided that this is what the decision is and that is the end 
of it.
    Mr. Peck. Mr. Chairman, I only became aware of this 
situation yesterday, so I do not have enough facts to know what 
has actually gone on there. But having dealt with the issue of 
where we locate and how we protect child care centers all over 
the country, because we operate 113 of them, I can just tell 
you that having separate services would make the situation 
worse, because ultimately the factors that go into a decision 
about where you put a child care center include: what space do 
you have available in a building that you do not have a tenant 
in or you can move a tenant out of; what indeed is the most 
secure or the most threatened space in the building; how much 
will it cost to fix it up; if structure or other appurtenances 
in the building have to be changed, those are going to be done 
by PBS. This just makes the point again that the security 
people and the real estate people need to be joined at the hip, 
not torn asunder, to make these decisions in an intelligent 
way.
    I am going to find out what has happened in Cleveland. But 
I can tell you, having worked through these before, I have not 
seen a situation that I have delved into where I have seen us 
make a decision based on the cost at the expense of security. 
It just has not happened in my experience. But I will find out.
    Senator Voinovich. I would be very interested because if 
what was reported in the paper is true, there is a disconnect 
there. Two years ago a memo said, no, do not do it. Somebody 
came along and said, well--and there was a quote from an 
individual there--said, well, no matter where you could put 
these things, you have got a problem, so we are going to go 
ahead and do it anyhow. So the issue is the decision was made 
apparently by the person that was in the PBS and not in the 
FPS.
    Mr. Peck. But the FPS people are in PBS. I do not know 
there is that disconnect. Without knowing the situation, it is 
easy to say, boy, they should not be over or near a loading 
dock. On the other hand, if the alternate locations are worse--
I mean, we have had child care centers right out in the front 
of a building next to the sidewalk. We do not want to have the 
child care centers there either. So, again, without knowing, it 
is hard to know what the decisionmaking is about. I have 
discovered that with some security issues that get brought to 
my attention there is so much emotion involved that rationality 
has sort of gone out the window.
    May I mention two other things?
    Senator Voinovich. Yes. But I would like to just ask, and 
it is probably a touchy question, but is there some 
interpersonal difference between the persons who run the FPS 
and the PBS in Washington and is this maybe the reason why we 
have this legislation? Is there some adversarial relationship 
or interpersonal problem there that has exacerbated a situation 
that has brought this to the surface now?
    Mr. Peck. Well, you can ask Mr. Edwards. There is not 
between him and me. I think if there has--I will be honest 
about it--I think if there has been a problem between PBS and 
FPS, it has been that in the past FPS was regarded within PBS 
as sort of a separate entity and not enough brought into the 
decisionmaking on where we locate buildings, how we design 
them, and how we operate them. By the same token, and 
unfortunately, when I came to GSA I asked officers in FPS what 
they felt their responsibility was with respect to supervising 
the contract guards, for example, of whom we have thousands, 
and I had many officers tell me I don't have anything to do 
with them. Which is a huge mistake because our security forces 
need to believe that everything that happens on security is 
something that matters to them. We cannot afford to have some 
officers thinking that the contract guard is some other group, 
that that is not a part of my job, or that the technological 
equipment is somebody else's job. They all need to be very 
integrated. So this is one of those issues where people keep 
asking me why are you on such a tear about this, and it is 
because I believe so firmly that the course we are on is the 
right one.
    Clarence Edwards and I agree on what the principal mission 
is and how we ought to approach it. In some regions, there may 
be some disconnects between some of the assistant regional 
administrators and the regional directors. I will tell you 
this--and I want to refute this lack of qualifications notion--
we have a really good set of regional directors. To my 
knowledge, I am trying to go down the list, I would like to 
submit for the record a list of our regional FPS directors and 
their qualifications because I know just in my mind at least 
seven or eight of the 11 have law enforcement qualifications. 
The regional director in this region came out of the 
Metropolitan Police Department at one point and the Park 
Police, if I remember correctly. So I do not know where this 
thinking comes from.
    I do not think there is that disconnect. Some of our 
Assistant Regional Administrators for Public Buildings have 
been among the most forceful advocates for higher pay, 
increased benefits, and better training for the FPS. I do not 
want to say that there is never any personality conflicts, that 
is always true in some large organization.
    Senator Voinovich. Congressman Traficant made a major point 
of what is the difference between GSA and the relationship 
between the Capitol Architect and the Federal protection here 
in Congress. Would either one of you like to comment on that?
    Mr. Peck. Having worked up here, I would rather. The 
organizational structure of the Congress as a whole, with two 
houses that are co-equal, is so different from most other 
organizations in the world it is hard to make the analogy. I 
will say we feel that we are more like the Park Service and the 
Park Police. The Park Service has control and jurisdiction of a 
huge amount of Federal property, there is a U.S. Park Police, a 
separate organization within the Park Service, that has law 
enforcement and security jurisdiction on the Park Service 
properties. I note that they are not a separate agency within 
Interior, separate from the Park Service, but a part of the 
Park Service, because the Park Rangers and the Park Police need 
to work hand-in-glove.
    That is an organization that I think works really well. I 
will just tell you, because Clarence Edwards come out of a long 
and successful career in the Park Police, that is basically the 
model we have been thinking about as we go ahead on this. And 
it is true that there is a complicating factor in GSA.
    It is true that Clarence cannot issue a direct order down 
the line in the regions, just like I cannot issue a direct 
order down the line in the regions to tell somebody to fix up 
that building. And I realize that in a police culture, in a 
security culture, that may be more of a problem than it is in 
what is more of a commercial real estate structure. And I 
think, to be honest, if you ask Clarence, he would honestly say 
that is a source of frustration to him. And I think that 
particular aspect of our organization is a source of 
frustration to him, but not the fact that he is not a separate 
service.
    Mr. Gallay. If I may just add.
    Senator Voinovich. Mr. Gallay.
    Mr. Gallay. I think that really does put the focus on the 
key issue here. And the example of the Park Police is a good 
one. Within the Park Police there is direct chain of command, a 
direct line of authority and command and control with respect 
to the law enforcement function. The organization does work 
well as part of a larger parent organization, the National Park 
Service. That is why we think some change is necessary and 
would be helpful to alter, with respect to the law enforcement 
functions, the kind of balkanized approach that has existed 
with respect to the Federal Protective Service in performing 
law enforcement functions.
    But the issues, the concerns that Commissioner Peck has 
raised with respect to the need to coordinate the law 
enforcement issues with the security functions are real, and 
that kind of coordination is essential. We think the changes 
that are necessary could be made within the PBS structure, 
permitting that linkage to occur.
    Senator Voinovich. Does that require statutory changes?
    Mr. Gallay. No.
    Senator Voinovich. It would not?
    Mr. Gallay. No, sir.
    Mr. Peck. We could, again because PBS was established by 
administrative order inside GSA, we could change the reporting 
relationship inside. I have considered that and I have not done 
it in the past, quite honestly, because I have thought that the 
logic of my position, which is that we all need to be joined at 
the hip, has meant to me that the reporting structure of FPS 
should be parallel to the reporting of PBS. It is an argument I 
have made. I have not discussed this before with the IG. I have 
to say I very much respect their work in this area and I am 
certainly willing to reconsider that.
    Senator Voinovich. Mr. Gallay, do you think the FPS is 
mostly security or law enforcement?
    Mr. Gallay. Well, that is a great question. The FPS 
traditionally has performed mostly a law enforcement function. 
And one of the things that this bill brings into focus, and one 
of the things that has been going on with an effort within PBS 
has been to try and get a handle on what is this beast: Should 
it be doing just law enforcement, or is it really pursuing more 
of a security orientation. There clearly needs to be a marriage 
of both.
    But with respect to the law enforcement functions, it needs 
to operate as a law enforcement organization. I think when we 
talked about the Capitol Police, the structure, as I understand 
it, is that there is again a police organization but that then 
reports to a board which includes the Architect of the Capitol 
and the Sergeants at Arms of the Senate and House. They deal in 
a kind of over-seeing sense with issues of security that 
include both aspects. That is the model we think would work 
best.
    Senator Voinovich. Be coordinated.
    Mr. Gallay. Yes. I think the frustrations Commissioner Peck 
said Mr. Edwards experiences he probably experiences as well in 
terms of dealing with the regions on some issues. And that is 
part of the concerns we have seen when we dealt with the 
building security enhancement program. The Commissioner issued 
a very clear direction to everybody concerned that the data to 
be entered into the data base intended to record what 
improvements have been made, that an improvement was only to be 
recorded as having been made once it was operational. Well, our 
audit found that there were wholesale problems in that, and the 
information one was presented with as to what the status of 
those changes were was wrong in many cases. I am sure he would 
often like to be able to have a more direct authority.
    In law enforcement organizations, that is really important, 
for the reasons that we have addressed.
    Senator Voinovich. The other thing from your testimony that 
is a little disturbing to me is the discrepancy in terms of the 
privately hired people and the qualifications of those 
individuals. It is all over the lot. How do you guarantee that 
those standards are met? That is very disturbing.
    Mr. Gallay. The standards are there and the objectives that 
the Commissioner has established for the FPS are excellent. But 
you do not get there unless you provide the resources for 
contract oversight and ensure that national standards are 
enforced. And if you have individual regions which are going in 
different directions, that can cause problems.
    Senator Voinovich. I would be really interested to see what 
you observed around the country, and it would be interesting to 
get your input on, if you did that, why is it in certain areas 
these people are right up to snuff and they are doing what they 
are supposed to be doing, then you go into another area and 
they are not at all. Is it a product of the fact that the 
person managing the building was not conscientious enough in 
terms of negotiating the contract as to qualifications of the 
individuals?
    Mr. Gallay. If I may just for a moment. PBS had a real 
challenge following Oklahoma City. They had a lot on their 
plate. The contract guard program went from something under 
3,000 at that time to over 6,000 presently. That is a huge 
change in a program to have to manage.
    The breakdowns that we have seen are largely attributable 
to a need for making sure that when you have gone to a 
contracted out program you need to continue to ensure--it is 
trust but verify--you need to ensure that what you have paid 
for is what you are getting. That is the area where there have 
been problems; there is inadequate attention to the controls in 
the program and to overseeing the contracts that have been put 
in place. There are good standards but the standards have not 
been uniformly enforced.
    Senator Voinovich. Do you think that if the Administrator 
in Washington had the power over these people directly that 
those standards would be more adhered to than they have been in 
the past?
    Mr. Gallay. That is a safe bet, but there are no 
guarantees.
    Mr. Peck. Mr. Chairman, two things. One is I do not want to 
waffle on the question you asked about security versus law 
enforcement. Job No. 1 is security, physical security of the 
people who work in and who visit our buildings. And that is 
what we have said. That is a fundamental change in the FPS 
mission from what it was before. It is not to say that there 
are not important law enforcement functions, and our folks, I 
want to tell you, are as good as you get at things like crowd 
control. We had terrific experience in Seattle where overall 
one could fault the law enforcement response. Our people were 
stellar and I think were recognized for that. So we are really 
good at that. But it is security.
    Senator Voinovich. When you are referring to your people--
--
    Mr. Peck. I mean the Federal Protective Service people who 
we brought in from other areas but who were mostly people 
headquartered in our Region 10 in Seattle. They had sealed off 
our area we thought in an appropriate way and were very well 
prepared for what happened in Seattle, to the point that when 
things got out of hand the mayor and others were using our 
buildings as the place where they had their press conferences 
because those were safe havens. I am just saying it was a great 
job.
    Senator Voinovich. OK. In terms of security, you are 
talking about the people that came in and looked at it, but you 
are not referencing the contract personnel that were there 
doing it?
    Mr. Peck. No, sir. That was our uniformed officers as well 
as our regional director who organized the response there. I am 
talking about our uniformed officers, who we do move around the 
country and need to have the authority to do that. They are 
very well trained. We think they have needed more training on 
some security issues. Individual building security issues, we 
have had a long history with crowd control and demonstrations 
because our buildings are often the focal point for those. Our 
people are very good at that.
    Senator Voinovich. So it is your security/uniformed people 
that you are talking about. For example, how many of those 
people do you have in the Cleveland region?
    Mr. Peck. I forget what the number is in Cleveland. If I 
remember correctly, it is somewhere between four and five 
actual uniformed Federal Protective Service officers in 
Cleveland. I will get you the number.
    Like every other part of PBS, most of the job of human 
security in the buildings--and remember, security starts with 
intelligence, finding out where the threats are and stopping 
them before they get even close to you. That is the most 
important thing. Second is hardening your targets, which you 
can do by technological means as well as human means. And 
third, actually using our tenants as eyes and ears and having 
everybody be alert. I am saying that that basic security of the 
facilities we think is job No. 1. We are fortunate in that we 
do not have that many major crimes in our building. We do have 
the need occasionally to go in when lines of people waiting for 
Social Security or INS get out of control. But our basic 
challenge is security. And we are getting better at that all 
the time.
    Second, on the contract guard issue, this is where we get a 
confusion. We now have 6,000 contract guards. As I said, I was 
concerned when I came in that some parts of FPS did not think 
they were responsible for even overseeing the contract guards 
or making sure they were doing their job. We found instances, 
as has the IG, in which we did not make sure that the contract 
guard sitting at a desk knew clearly and concisely what it was 
they were supposed to do, and, by the way, what they are not 
supposed to do.
    We identified 3 years ago when we came out with a plan for 
a strengthened FPS that improving the contract guard program 
was very important. This April we came out with a new contract, 
standard contract for contract guards which increases training 
requirements for the contract guards. It will cost us more 
money and we have budgeted for that in fiscal year 2001 and 
fiscal year 2002.
    We are also, and this is the final thing, and this is 
really important and important for everyone to know, we are now 
on things like firearms training, Federal Protective Service 
personnel, Federal employees will supervise the firearms 
certification. So when it is tested we will not have 
contractors, we are going to rely a whole lot less on 
contractors self-certifying that they have done the training we 
require and much more on having our own people check it. We are 
increasing the number of hours the contract guards will have to 
be trained, and the final exams will be proctored by Federal 
Protective Service personnel.
    So all of those things are big improvements in the contract 
guard program. We have also changed our contract so that if we 
do not think we are getting good service out of the 
contractors, we can terminate them fast. And that is a club you 
unfortunately need to have over contractors' heads.
    Senator Voinovich. Thank you very much for your testimony. 
Appreciate it.
    Mr. Peck. Thank you.
    Mr. Gallay. Thank you, Mr. Chairman.
    Senator Voinovich. I would suggest that the two of you get 
together and talk about some of the concerns, and I would be 
interested in what your reaction to that is.
    Mr. Peck. Thank you.
    Senator Voinovich. Our next panel is Honorable Jane Roth, 
the U.S. Court of Appeals, Wilmington, Delaware; and Steven 
Bellew, Vice Chairman of the Fraternal Order of Police, Federal 
Protective Service Labor Committee, Dallas, Texas. We welcome 
you this morning.
    We will begin the testimony with Judge Roth. Judge, we are 
glad to have you here again.
    Judge Roth. Thank you, Mr. Chairman.

STATEMENT OF HON. JANE ROTH, U.S. COURT OF APPEALS, WILMINGTON, 
                            DELAWARE

    Judge Roth. Mr. Chairman, I appreciate having the 
opportunity to appear before you today to discuss H.R. 809, the 
Federal Protective Service Reform Act of 2000.
    In March of 2000 the Judicial Conference of the United 
States resolved that H.R. 809 be amended to make clear that, 
should this bill be enacted into law, it would not diminish or 
interfere with the statutory authority of the United States 
Marshals Service to provide security for the Federal judiciary. 
The Marshals Service authority to provide security for the 
judges, judicial employees, witnesses, and jurors derives from 
28 United States Code Section 566. The Judicial Conference 
recommends the following amendment be added to H.R. 809 as a 
new Section 11. It would state:
    ``None of the provisions of this Act shall be construed to 
interfere with, supersede, or otherwise affect the authority of 
the United States Marshals Service to provide security for the 
Federal judiciary pursuant to 28 United States Code, Section 
566.''
    Prior to 1982, the General Services Administration and the 
Marshals Service shared responsibility for security inside 
Federal courthouses. Under this shared responsibility, security 
was inadequate. In 1982 Chief Justice Warren Burger and 
Attorney General William French Smith, in cooperation with the 
GSA, agreed that the Marshals Service should assume primary 
responsibility and authority to provide security and protective 
services in Federal buildings housing court operations.
    In order to assist with implementation of this agreement, 
the Marshals Service received delegated authority from the GSA 
Administrator to contract for guards in court-occupied space. 
In 1983, as part of a joint judicial and executive branch 
initiative, the Marshals Service established the Judicial 
Facility Security Program. As a result of this agreement and 
its subsequent implementation, the Marshals Service assumed 
responsibility for all security inside courthouses and GSA 
retained responsibility for security outside courthouses.
    The judiciary believes the Judicial Facility Security 
Program has proven to be efficient and effective and that it 
should be continued.
    We are concerned that Section 6 of H.R. 809 could be read 
to infringe upon the role of the Marshals Service to provide 
security in court-occupied space because it gives authority to 
the newly created position of Federal Protective Service 
Commissioner to serve as the Government's law enforcement 
officer in buildings under the control of the GSA 
Administrator. In addition, Section 9 of the bill could be read 
to change the responsibility for contract guard employment 
standards. Currently, the Marshals Service uses standards of 
suitability which it has developed for employment of contract 
guards. The judiciary wants to ensure that enactment of this 
proposed legislation would not lead to a change in this 
arrangement.
    We believe the amendment proposed by the Judicial 
Conference would only clarify the intent of H.R. 809. The 
report of the House Committee on Transportation and 
Infrastructure which accompanied the bill to the House floor 
states: ``This legislation enhances the FPS, and has no impact 
on the facilities secured by the Secret Service, Federal Bureau 
of Investigation, and United States Marshals Service.'' 
However, the report language is not binding. The judiciary 
believes that language in the proposed bill itself is 
necessary.
    We also believe that the Marshals Service and GSA do not 
support any interference with the authority of the Marshals 
Service as found in 28 United States Code Section 566, and 
affirmatively support continuance of the Judiciary Facility 
Security Program.
    I also spoke to Representative Traficant this morning. He 
does not oppose the language that we are proposing. He wants 
the bill to move forward quickly, but he does not feel that the 
language that we propose in any way impinges upon the 
legislation that he is supporting.
    I would be happy to answer any questions you may have and, 
once again, thank you for the opportunity to appear before the 
subcommittee.
    Senator Voinovich. Thank you very much.
    Mr. Bellew.

 STATEMENT OF STEVEN BELLEW, VICE CHAIRMAN, FRATERNAL ORDER OF 
  POLICE, FEDERAL PROTECTIVE SERVICE LABOR COMMITTEE, DALLAS, 
                             TEXAS

    Mr. Bellew. Good morning, Mr. Chairman, and thank you for 
giving me the opportunity to appear before you today. My name 
is Steven Bellew, and I am a Federal Protective Service Police 
Officer from Dallas, Texas, and Vice Chairman of the Fraternal 
Order of Police-FPS Labor Committee. I am here today at the 
request of Gilbert Gallegos, National President of the Grand 
Lodge Fraternal Order of Police, the nation's largest 
organization of law enforcement professionals, to testify about 
the importance of enacting into law H.R. 809, the Federal 
Protective Service Reform Act.
    In the wake of the Oklahoma City bombing and the deaths of 
168 innocent people in 1995, many in the Congress and the 
Federal Protective Service sought ways to ensure that such a 
senseless loss of life would never happen again. In the 5-years 
since the bombing of the Murrah Building, much has been done to 
enhance Federal building security and public safety. However, 
the General Services Administration and the Public Buildings 
Service have proven themselves unwilling or unable to implement 
those reforms which are most necessary to address several 
current problems within the Federal Protective Service.
    First, and foremost, is the internal dismantling and 
weakening of the FPS. Over the last several years, the Public 
Buildings Service has moved FPS away from its traditional focus 
on patrol and response activities, placing a greater reliance 
on State and local law enforcement to act as first responders 
to critical incidents in major U.S. cities.
    A related problem is the lack of law enforcement experience 
in front-line management. The Regional Administrators of the 
Public Buildings Service and at least five of the Regional FPS 
Directors do not have law enforcement backgrounds. The 
Assistant Commissioner of FPS exercises no direct control and 
has been relegated largely to an advisory and policymaking 
role, despite having over 20 years of command level law 
enforcement experience. Thus, the effectiveness of the FPS as a 
law enforcement agency is severely crippled by the fact that 
the Commissioner does not have direct command and control 
authority over his officers across the Nation. This view was 
also expressed in the 1995 ``Vulnerability Assessment of 
Federal Facilities.''
    Finally, the heavy reliance of GSA on the use of contract 
security guards to provide the bulk of protective services in 
America's Federal buildings presents serious security concerns. 
As a whole, private security guards do not receive the same 
level or quality of training as do FPS police officers. While 
the use of contract guards by GSA has been steadily increasing 
over the years, along with the increase in the PBS inventory, 
the number of full-time police officers has declined.
    How does this legislation address the problems which have 
been outlined above? The primary goal of H.R. 809 is simple: To 
reestablish the Federal Protective Service as an elite Federal 
law enforcement agency with a well-trained, professionally led, 
and highly motivated cadre of officers. H.R. 809 will enhance 
the safety of America's Federal buildings in a number of 
important ways.
    First, the legislation provides for the separation of the 
FPS from the Public Buildings Service and elevates the agency 
within GSA. By placing the FPS outside of the Public Buildings 
Service, the legislation will ensure that law enforcement is 
given the same level of consideration as property management, 
and not as a secondary concern of PBS.
    The Fraternal Order of Police continues to believe that 
separation and elevation of the FPS is the only sure way of 
improving the effectiveness and capabilities of the agency. Not 
only would this move establish direct command and control 
authority over FPS officers with the Assistant Commissioner, it 
would also ensure that individuals throughout the chain of 
command have the experience and knowledge necessary to 
effectively command a law enforcement force.
    As I have already mentioned, over the years we have 
witnessed the quiet dismantling of the FPS, most noticeably in 
the staff reductions which continue to occur throughout the 
agency. H.R. 809 will reverse this trend by requiring GSA to 
maintain a minimum of 730 full-time Federal Protective 
Officers. Unfortunately, this provision is greatly needed due 
to GSA's disregard of the provisions of Public Law 100-440. In 
looking into the issue of GSA's noncompliance, the Office of 
Inspector General concluded in 1995 that:``. . . whenever 
funding and FTE positions became available, these additional 
resources were directed into an alternative protection program, 
even after Public Law 100-440 was enacted.'' And ``Not only 
were the FPO ranks not increased, but GSA also permitted the 
number of officers to decline significantly.''
    H.R. 809 has several other provisions vital to the future 
of the Service. It will clarify and enhance the authority of 
FPS officers, and it will require that the Commissioner of FPS 
establish minimum standards and training requirements for 
contract security guards.
    In the end, Mr. Chairman, this is not a ``pay raise'' bill 
and I do not know of any direct benefits which will accrue to 
FPS officers by its passage. Those of us who do put our lives 
on the line every day to ensure the safety and protection of 
Federal employees and facilities believe that H.R. 809 is an 
important step toward improving the capabilities of the Federal 
Protective Service to meet the security challenges of the 21st 
Century. Passage of this legislation is a top priority of the 
Fraternal Order of Police, and we hope to work with members of 
this subcommittee to ensure its enactment before the end of the 
106th Congress.
    Thank you again, Mr. Chairman, for allowing me the 
opportunity to address you this morning. I will be happy to 
answer any questions you may have.
    Senator Voinovich. Thank you very much.
    Judge the Federal Marshals Service, how does that work out 
with the Federal Protection Service? You have your marshals and 
you have got to change so that the marshals have authority then 
for you say the internal security and the FPS has the external. 
Does that work out pretty good?
    Judge Roth. That works out very well, and we would like to 
have it continue that way. As I mentioned, there was concern in 
1982 that there was insufficient security in courthouses. With 
the arrangements we have worked out now, we feel it works very 
well. We are concerned at the present time that there is a 
disconnect with GSA doing security outside courthouses and the 
marshals doing security inside courthouses. We would like to 
coordinate and consolidate that security more. But we feel it 
is very important that the Marshals Service continue to play 
their present role inside courthouses. Since statutorily that 
role is given to GSA and the Marshals Service does it under 
agreements, we feel that, unless the statutory language is 
added to the bill to clarify that the FPS jurisdiction will in 
no way impinge upon or affect the Marshals Service, there could 
be problems.
    Senator Voinovich. The Federal Marshals Service, do they 
have contract employees that they hire?
    Judge Roth. They do. The court security officers program, 
which is within the budget of the judiciary, is managed by the 
Marshals Service. The court security offices provide, for 
instance, the entrance guards at courthouses. They patrol 
within courthouses. Their qualifications and training and the 
determination of who is needed where is done under the 
direction of the Marshals Service.
    Senator Voinovich. So the Marshals Service is like, you 
heard the testimony of Mr. Peck about the FPS, they have got a 
few uniformed people that, say like in Cleveland, there are not 
very many of them, but they are in charge of looking at the 
security of the building and working with the judges and so 
forth, and then they determine what kind of contract services 
they need to run the checks and----
    Judge Roth. Yes. This is done on a national basis. The 
standards that are required for courthouses are established by 
the Marshals Service, in coordination with our Committee on 
Security and Facilities.
    Senator Voinovich. Mr. Bellew, so I have a complete 
understanding, the people that you represent are the 
investigators and the uniformed people, for example, to go back 
to Cleveland, Mr. Peck said five or six people.
    Mr. Bellew. Yes, sir.
    Senator Voinovich. When you are talking about increasing 
the numbers of people, you are talking about increasing the 
numbers of those kinds of individuals. Is that correct?
    Mr. Bellew. Yes, sir. This number is primarily a base 
number. It was put in the legislation basically so that they 
could not drop below that number. That is for all of them, yes, 
sir.
    Senator Voinovich. And the purpose of it is not to 
eliminate contract people from being hired at these Federal 
facilities, but rather, you do not think there is enough people 
in the Federal Protective Service in those areas to do the job 
that they are supposed to do. Is that correct?
    Mr. Bellew. Yes, sir.
    Senator Voinovich. All right. Is there any interest within 
the FPS work force in the law enforcement and security officer 
position, the new LESO position?
    Mr. Bellew. The LESO position was primarily supposed to be 
for putting these officers into remote locations out of the 
core cities so that we would be able to provide law enforcement 
to places that were not within the core cities, such as 
Cincinnati, Cleveland, New York, and the larger metropolitan 
cities where we do have large forces of police officers. That 
was the original purpose of the LESO. That way they could have 
a physical security person in that location as well as a law 
enforcement.
    The way that the position was brought about was that it was 
supposed to encompass 51 percent law enforcement and 49 percent 
physical security duties. Even though they received a lot of 
training in both areas, that is not really what we are seeing 
nationwide. Out of all 11 regions, there are only a few of them 
where the people are actually in uniform. One of the primary 
purposes of that was to augment the uniformed force and allow 
the uniformed personnel to hold a job where they could be 
fairly compensated. In some of the regions they did not even 
look within the uniformed positions to begin with. What they 
did was they went to college campuses and just recruited people 
straight out of college that did not have any law enforcement 
experience for these positions.
    Senator Voinovich. So, initially, the concept was that 
people would be moved up within the Federal Protective Services 
into another level, because I guess they move up to another 
category where they are eligible to receive better 
compensation.
    Mr. Bellew. Yes, sir.
    Senator Voinovich. But that has not been the way it has 
worked out. I would really be interested if you could give me 
some information on that so I would have it, on how is that 
really working, and what are your concerns about it, and how 
can it be improved.
    But getting back to this number of new people, you just do 
not think there are enough folks out there right now, and we 
are not talking about contract people. I would be interested, 
for example, I think they have five in the Cleveland area, how 
many of the new 700 would go to Cleveland, for example?
    Mr. Bellew. Well, that would----
    Senator Voinovich. You do not have to answer that. 
Basically, what you are saying is, from your perspective and 
the perspective of your members, there just are not enough of 
us out here to get the job done. Is that basically it?
    Mr. Bellew. No, sir. I can give you a prime example in New 
York City today, as a matter of fact. Back in 1995 FPS hired 35 
what they call ``term'' police officers. These officers were 
supposed to augment the permanent police officers in the World 
Trade Center bombing trials, the terrorist trials. Well, their 
term of duty expires on Saturday, in 2 days. What is going to 
happen at that point is approximately 50 percent of the police 
force there in New York City is going to lose their jobs.
    New York has two primary high profile terrorist trials 
coming up, the two trials of the terrorists that bombed the 
embassies in Africa. We have been fighting that cutback for 
weeks now, saying why are you getting rid of 50 percent of your 
Federal police force when you have two huge trials coming up. 
In a 1999 letter from the Attorney General's Office, Janet Reno 
sent a letter to David Barram, the Administrator of General 
Services Administration, requesting that these officers remain 
at their post and continue funding for fiscal year 2000. And 
even though Congress has funded the program, they are diverting 
the funds to different locations for different purposes other 
than to maintain these 35 officers in New York.
    Senator Voinovich. These 35 officers were hired into the 
Federal Protective Service and now they are letting them go 
because they feel that they are not needed, is that it?
    Mr. Bellew. Yes, sir.
    Senator Voinovich. And you are saying that, from everything 
that you know, they should stay there. And that is an example 
of where they responded correctly by adding people, and you 
would argue that there are other places in the country where 
you need more people.
    Mr. Bellew. Yes, sir.
    Senator Voinovich. And that is where you get the 700 
number?
    Mr. Bellew. Yes, sir.
    Senator Voinovich. Are there any other comments that anyone 
would like to make?
    [No response.]
    Senator Voinovich. Obviously, you think the legislation is 
needed. Maybe the last question would be, Major Peck's and the 
Deputy Inspector General's testimony indicates they think this 
thing could be worked out administratively, what is your 
reaction to that?
    Mr. Bellew. My reaction to that is I do not believe it can 
be worked out administratively for the simple fact that law 
enforcement is an inherent government function. Law enforcement 
is something that when you are dealing with police officers you 
need to have police officers in charge. I will give you a prime 
example. PBS consistently ``fences'' our funds so that the 
training that we are supposed to receive or that we have 
applied for never happens. Prior to the Oklahoma City bombing 
trial, I instructed a civil disturbance class for police 
officers that were involved with the trial and I was told that 
was the first training they had received in over 7 years. Our 
funds continuously get diverted to other locations. That is why 
we need police officers in charge of other police officers, so 
that we can receive the funds that we are supposed to receive, 
conduct the training that we are supposed to conduct, and 
secure the buildings.
    One item I would like to bring up is that a lot of people 
seem to be concerned with the divesting of security from public 
buildings. Part of the legislation as written mandates that the 
new Commissioner of the Federal Protective Service will 
coordinate all his activities with the Commissioner of the 
Public Buildings Service. It would be nothing more than a new 
policy to mandate that the physical security specialists do 
exactly what they are doing now. Nothing is really going to 
change other than the fact that, instead of issuing guidelines 
and suggestions, we would receive hard core policy that would 
enable us to become the elite law enforcement force that we 
should be.
    Senator Voinovich. In other words, under the current 
system, you do not think the FPS gets the kind of priority that 
it ought to be getting, and that when decisions are being made 
in terms of what do you do with the dollars, so often they flow 
to the administrative side of this thing rather than they do to 
the FPS? You are kind of a stepchild there, and you believe if 
you were separate there would be more advocacy on the part of 
the Federal Protective Service.
    Mr. Bellew. Yes, sir.
    Senator Voinovich. In terms of advocacy, budget spending, 
and also in terms of control in the local area. Do you think if 
this set up had been in place that the report that came back 
about the unevenness in the hired people per the contracted 
people would be there? Do you think that would have improved if 
this set up that you suggest was in place 5 years ago? Do you 
think that would be a whole lot better today than it is if you 
had had the separate police?
    Mr. Bellew. Mr. Chairman, the police officers that we have 
out there in the field today are well-trained. They go through 
an extensive course at the Federal Law Enforcement Training 
Center in Glynco, Georgia. Afterwards, they have periodic 
training, in-service training, they go through a period of 
field training officer orientations to ensure that they know 
their jobs before they are put in the field, they undergo 
rigorous background investigations by the Office of Personnel 
Management, and the security officers do not. As the IG stated 
earlier, there is a big problem with the number of security 
officers. Approximately 10 years ago, we had about 5,000 well-
trained Federal police officers out on the street to protect 
the buildings. Now, we have approximately 500.
    Senator Voinovich. Well, the fact is what has happened is 
that they have hired more contact employees than they had 
before, correct?
    Mr. Bellew. Yes, sir. And these contract employees do not 
undergo the rigorous background investigations we do, they 
receive hardly any training, their management is lax, as 
evidenced by the IG's report which states that a lot of them 
were not certified, they were not certified properly with their 
weapons. Those are just some of the problems that we have with 
the security force that we have.
    Senator Voinovich. So you think those contract employees 
should be FPS employees? Again, I want to go back to the issue 
of contract employees. Do you think those people ought to be 
Federal Protection people rather than contract employees?
    Mr. Bellew. That would depend on whether they would meet 
the criteria. They are going to have to go through the 
background investigation, which I am sure that some of them 
would probably not pass, and they would have to complete the 
training, which would further weed out people who were not able 
to be police officers, and what you would wind up with is you 
may start with 5,000 people and wind up with 600-700 good 
police officers that you could field.
    Senator Voinovich. Well, the question I have got is do you 
think that the people that the Federal Protection Service 
hires, these contract people that do some of the work, need the 
same kind of background and everything else that you have for 
your people?
    Mr. Bellew. Yes, sir, they should. You would not want a 
felon working as a security officer at your Federal buildings, 
if I understand the question correctly. If they met the same 
type of background investigation we do, then we would be able 
to catch the fact that they were a felon or that they had 
several arrests or whatever and they would not be hired, they 
would not work on the contract.
    Senator Voinovich. OK. I thank you very much for your 
testimony.
    Judge Roth. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak to you.
    Mr. Bellew. Thank you.
    Senator Voinovich. The record will be open until October 3d 
for anyone to submit information.
    The hearing is adjourned.
    [Whereupon, at 11:03 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut
               tribute to senator daniel patrick moynihan
    This is a poignant moment for me as I acknowledge the extraordinary 
contributions to American life made by my esteemed friend and 
colleague, Senator Moynihan, and in doing so, bid him goodbye from the 
Senate.
    Throughout four decades in public life, Pat Moynihan has built a 
richly deserved legacy as one of our most prescient and gifted leaders. 
He is both Renaissance man and someone who understands New York City's 
``mean streets;''--a product of New York's Hell's Kitchen neighborhood 
but also of Tufts, Harvard and the London School of Economics. He has 
served his country as a statesman and a scholar, an author and an 
ambassador, a counselor in four consecutive Presidential 
administrations, both Democratic and Republican, and for 22 years, as 
Senator from the Empire state. Ultimately, he is a man dedicated to 
people, rather than party or politics.
    I consider myself fortunate--and it has been an honor I will 
continue to cherish--to have been given the opportunity to work beside 
Pat and learn from him during the 12 years our tenures in the Senate, 
and on the Environmental and Public Works Committee (EPW), overlapped. 
And while Pat has accomplished so much spanning the realms of foreign 
and domestic policy--I would like to take this time to honor his record 
on this committee, where he has served with distinction since he was 
first elected in 1977.
    More than anyone I know, Senator Moynihan influences the present 
with a profound understanding of the past and a prophetic view of the 
future. Through innovative thinking and firm leadership, he has 
demonstrated an unwavering commitment to preserving the beauty and 
purity of our environment so that the solace our ancestors found in 
nature may also be discovered by our descendants. This, and a skill for 
working across party lines, has allowed him to exert an influence that 
has dramatically improved the quality of American lives.
    In what may be his crowning environmental and public works 
achievement, he was chief author of the landmark Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA). The genius of this law 
is that, for the first time, it integrated transportation and 
environmental policy, with a eye toward maintaining both the 
infrastructure and nature, to improving both our working and our 
leisure lives.
    The legislation redirected Federal surface transportation policy to 
include not only highway construction but maintenance, and also a broad 
array of new transportation approaches: programs to beautify our 
roadways, to acquire scenic and historic sites, and to establish 
pedestrian and bicycle facilities by utilizing abandoned railway 
corridors. The flexibility of the bill permitted closer coordination 
between transportation and clean-air programs in a deliberate effort to 
avoid past conflicts between the two goals.
    ISTEA also gave states greater flexibility to solve their 
particular transportation needs, recognizing that different parts of 
the country have opposing priorities. In some states new capacity may 
be at the top of the list, while in others greater highway maintenance 
takes precedence. ISTEA permitted each state to use its discretion to 
better manage its transportation demands while making the most of its 
Federal funds. The reforms initiated by the Senator Moynihan in ISTEA 
were so successful they were continued and enhanced in the 
Transportation Equity Act for the 21st Century, TEA-21, which was 
enacted in the last Congress.
    There are many examples of Senator Moynihan's visionary leadership, 
but I will mention just three more. From his first days on the 
Committee on Environment and Public Works, Senator Moynihan has shown 
an extraordinary gift to perceive problems before they catch the public 
eye. He and his New York colleague, the late Senator Jacob Javits, were 
the first Senators to respond to the Love Canal crisis, calling for a 
swift state and national response to help the families cope with a 
hazard that existed, literally, in their backyards. His empathy for the 
victims of Love Canal and his commitment to protecting others from 
similar tragedies led to his close involvement in the development of 
the Superfund program.
    Senator Moynihan must also be recognized as the originator of acid 
rain legislation. As early as 1979, he foresaw the potential 
consequences of acid rain on our forests and streams and rigorously 
fought to address the problem. While the legislation underwent changes 
in conference, Senator Moynihan's bill eventually emerged as an 
important 10-year research program that ultimately became one of the 
Federal Government's largest scientific studies outside of NASA. His 
work on acid rain became the foundation for strong Clean Air Act 
legislation on this issue. Through the years he has continued to play a 
prominent role in protecting air quality in New York and throughout the 
nation.
    Finally, Senator Moynihan has long held a deep appreciation for the 
beauty, grandeur and historical meaning of public buildings and their 
role in our daily lives. He led the effort to transform Pennsylvania 
Avenue from a neglected slum into a boulevard that rivals any of the 
great capitals of Europe. He played an instrumental role in the 
renovation of the exquisite building that is Union Station in 
Washington D.C., and the incomparable Penn Station in Manhattan, and 
remains an active member of the Smithsonian Institution's Board of 
Reagents. The return to quality architecture in government buildings is 
in significant part testimony to his understanding that public 
buildings must better represent the aims and aspirations of our nation. 
It is safe to say, no other Senator in the last half century has had a 
more enduring impact on preserving our heritage through public 
buildings.
    Senator Moynihan and his life's work, on the Environment and Public 
Works Committee and in all aspects of his illustrious career, have 
touched my life and the lives of all Americans in profound ways. I know 
his departure will be deeply felt, particularly by me for whom he has 
been more than a mentor: a guiding light, a great teacher, and an 
inspiration. I wish him all the best.
                               __________
Statement of Hon. James A. Traficant, Jr., U.S. Representative from the 
                             State of Ohio
    I want to thank the Chairman Voinovich and Ranking Senator Max 
Baucus, for holding this hearing on H.R. 809, the ``Federal Protective 
Service Reform Act.'' As the author of this legislation, which has 
received bipartisan support. I hope that the committee will approve the 
bill and move it to the Senate floor as soon as possible.
    I have been working for the past 6 years to improve Federal 
building security. This bill will make a big difference. It will put us 
in a position where we can harness the professionalism of the Federal 
Protective Service and thus reduce the likelihood of another Oklahoma 
City.
    Good security starts and ends with good people. One of the keys to 
dramatically improving building security is having a well-trained 
professional police force led by experienced law enforcement and 
security professionals--not real estate managers. Congress also needs 
to clearly establish, by statute, FPS's mission and jurisdiction.
    H.R. 809 will achieve all of these goals.
    Why is this legislation needed? Because security is best provided 
by police officers--not real estate managers! Low manpower levels, a 
flawed management structure, and the increasing use of unqualified 
contract guards are seriously compromising the ability of FPS to do its 
job.
    For example, FPS is part of GSA's real estate management arm, the 
Public Building Service. As such, the head of FPS does not have command 
and control authority over FPS
    regional directors. Regional FPS directors are required to report 
directly to Public Building Service regional administrators--
individuals with no law enforcement experience!
    In addition, the majority of FPS regional directors have no law 
enforcement or intelligence experience.
    One example I would like to cite is the proposal to construct a new 
child care center in the Celebrezze Building in Cleveland, Ohio. PBS 
blatantly ignored the recommendations of the Joint Security Task Force 
and proposed placing the center adjacent to the building's loading dock 
FPS objected to this proposal, but the matter is still pending.
    It is clear that an independent FPS could that its security 
recommendations are taken seriously and have equal footing with other 
agencies.
    H.R. 809 embodies the FPS-related recommendations made in a 1995 
Justice Department study conducted in the wake of the April 19, 1995 
bombing of the Murrah building in Oklahoma City. The study's 
recommendations, which included upgrading the position of FPS within 
GSA, were endorsed by the FBI, Marshals Service, Department of Defense, 
Secret Service, State Department and Administrative Office of the U.S. 
Courts.
    I would also point out that a 1996 review conducted for GSA by 
Arthur Andersen strongly recommended that FPS be made a stand-alone 
service within GSA. Unfortunately, through four separate hearings 
conducted over the past 2 years by the House Transportation and 
Infrastructure Committee, PBS never once mentioned this key study.
    I want to note for the record that House committee staff had 
lengthy discussions with key PBS officials about this legislation. We 
offered to negotiate all provisions in the bill if PBS would agree to 
give full ``command and control'' authority to the head of FPS. The 
answer was a resounding ``no.''
    H.R. 809 has been strongly endorsed by every major law enforcement 
organization in the country, including the National Fraternal Order of 
Police, the Federal Law Enforcement Officers Association and the 
International Brotherhood of Police Officers.
    I want to also note for the record that the House worked closely 
with the Department of Justice and the Secret Service to resolve some 
minor concerns they had over the wording of the original bill. All of 
their concerns were addressed in a manager's amendment approved by the 
Transportation and Infrastructure Committee.
    The only issue that has been contentious, as far as the Public 
Building Service is concerned, is whether or not FPS should be a stand-
alone service within GSA.
    On this issue I side with the law enforcement community.
    The fact is, the entire law enforcement community believes that 
making FPS a stand-alone service within GSA is essential to upgrading 
and improving Federal building security.
    Mr. Chairman, this bill is much needed and long overdue. The sad 
reality is that since Oklahoma City, the terrorist threat to Federal 
buildings--foreign and domestic--has increased dramatically. Right now, 
we are still unprepared to deal with this threat.
    H.R. 809 will give us a fighting chance to effectively combat 
terrorism. I urge its expeditious approval.
                               __________
   Statement of Hon. Robert A. Peck, Commissioner, Public Buildings 
                Service, General Services Administration
    Good morning Mr. Chairman and members of the subcommittee. I am Bob 
Peck, Commissioner of the Public Buildings Service. With me today is 
Clarence Edwards, Assistant Commissioner for the Federal Protective 
Service. Thank you for the opportunity to update you on our progress in 
improving security in GSA-owned and leased buildings and to express our 
concerns regarding H.R. 809.
    It goes almost without saying that we have no more important 
responsibility than providing for the security of the tenants and 
visitors in our buildings. As I've said before, we need to provide that 
security while maintaining friendly, inviting, public buildings. No 
easy task.
    Since the heinous bombing of the Murrah Federal Building in 
Oklahoma City in 1995, we have tripled our annual spending on security 
to over $250 million per year, increased the number of Federal 
Protective Officers to 582 (this includes both our traditional Federal 
police officers (FPO) and our new law enforcement security of ricers 
(LESOs), as of July 31), and doubled the number of contract guards to 
over 6,000.
    We are also improving our security in qualitative ways that go 
beyond numbers. Many in our Federal Protective Service (FPS) are 
embracing the changes; some are not and would like to see FPS divorced 
from PBS and made an independent arm of GSA. We oppose that change. 
First, here's what our changes in FPS are all about. We started by 
defining the FPS mission and objective; they had not been clear before. 
The objective is for FPS to become the best facilities security 
organization in the world. The principal mission is building security, 
by which we mean protecting the affected facility, its tenants, 
visitors and their property from harm. As Assistant Commissioner 
Edwards, a veteran police officer and our top FPS official, says: FPS 
is not a police organization; it is a facility security organization 
with law enforcement authority.
    We are changing training, job definitions and tactics to carry out 
this mission. We have created the new LESO position, which will become 
the core position in FPS. LESOs get both full law enforcement and 
physical security training. LESOs have full arrest authority and carry 
weapons. They wear police uniforms or plain clothes depending on the 
needs of the day. Their job is to be responsible for security in a 
given geographical area: to oversee physical security precautions and 
to deal with emergencies. LESOs are being deployed so as to extend our 
protective services to locations not previously covered.
    We already have about 79 on board, 62 of them former FPS officers 
or Physical Security Specialists (PSS); another 76 LESO positions are 
in the recruitment process. Not coincidentally, the new position starts 
and tops out at GS levels above where the general FPS officer position 
currently starts and tops out.
    We have added a special 2-week FPS orientation course to the 8-week 
basic police training our recruits get at the Federal Law Enforcement 
Training Center in Glynco, Georgia. We have also created a 4-week 
Physical Security Academy that is quickly becoming known 
governmentwide.
    We have adopted the ``community policing'' tactics that have taken 
police officers out of their cars and back on the streets in cities and 
Federal facilities around the country (open on foot, sometimes on 
bicycles, which we are using, too). The idea is to be out and about to 
deter incidents, not to wait for a 911 call after incidents have 
occurred. We call it ``customer oriented policing'' and it means our 
officers, whether LESOs or FPOs, will spend more time in and around the 
buildings we lease and operate. We expect this to yield two additional 
benefits: 1) our customers, who pay security surcharges that partially 
fund FPS (which is also supported by regular rent payments), will 
actually see more of our highly qualified in-house security experts, 
and 2) we'll be able to convert our tenants into more effective eyes 
and ears, alerting us to possible problems, whether malfunctioning 
equipment or workplace situations that pose a threat.
    We have deployed a terrific new software package for use by our 
Physical Security Specialists and LESOs in identifying the threats 
against each of our locations and evaluating how to respond to those 
threats. It may have been the quickest and most successful single 
rollout of a software application I've seen in PBS.
    All the experts say that intelligence is the most important weapon 
against those who plan violent acts. Our Criminal Investigators (CI's) 
have all received intelligence analysis training and are involved with 
highly effective liaison efforts with the Federal intelligence-
gathering agencies, like the FBI. We have upgraded our secure 
communications equipment, too. Additionally, the CI's are being trained 
in the new Regional Threat Assessment Methodology.
    Finally, we have upgraded requirements in our contract guard 
contracts and put FPS officers in charge of monitoring training 
quality. Security guards are now required to have 100 hours of 
training, higher academic standard, and consistent firearms training.
    In all of this training and job redefinition, we are acknowledging 
that our security personnel are like their other PBS colleagues: there 
will never be enough of us to do all of the hands-on work that needs to 
get done; rather, PBS employees do the work that is inherently 
governmental and manage contractors and use technology to multiply our 
capacity.
    Now, why do we oppose making FPS a separate arm of GSA? Principally 
because it would divorce security from other Federal building functions 
when the opposite needs to be the case: security needs to be tightly 
integrated into decisions about the location, design and operation of 
Federal buildings. Divorcing FPS would create an organizational barrier 
between protection experts and the PBS asset managers, planners, 
project managers and building managers who set PBS budgets and policies 
for our inventory as a whole and who oversee the day-to-day operations 
in our buildings.
    The security we provide is financed out of rent revenues collected 
by the Public Buildings Service from our building tenants. Those 
tenants understandably look directly to PBS for responses to their 
security questions and needs. A separate GSA security service would be 
confusing to them and would lead to confusion about who is responsible 
for what in GSA's security efforts. It is also contrary to other agency 
efforts to present our customers with a seamless GSA, which is capable 
of offering more integrated housing solutions.
    The relationship between FPS and PBS is like that of the U.S. Park 
Police and the National Park Service. The Park Police are a component 
of the National Park Service and not a separate bureau of the 
Department of the Interior. The Park Police patrol and protect 
properties that fall under the auspices of the Park Service, just as 
FPS patrols and protects properties under the auspices of the Public 
Buildings Service. The Department of the Interior has found, just as 
GSA has, that the protection function needs to be fully integrated with 
the other aspects of property preservation, operation and management.
    In closing, I thank the subcommittee for this opportunity to 
discuss security at GSA-controlled facilities. We are pleased that both 
the GAO and the IG recognize the significant progress we've made in 
improving the security of Federal buildings. we look forward to working 
with the subcommittee on this issue.
    This concludes my prepared statement. We would be pleased to answer 
any questions you may have.
                                 ______
                                 
 General Services Administration, Public Buildings Service,
                                                  October 10, 2000.
The Honorable George V. Voinovich, Chairman,
Subcommittee on Transportation and Infrastructure,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC 20510
Dear Mr. Chairman: During the hearing before your Subcommittee on 
Transportation and Infrastructure on September 28, 2000, you raised 
concerns about the security of the new child care center planned for 
the A. J. Celebrezze Federal Building, Cleveland, OH. Specifically, you 
stated it was unclear to you whether GSA might, due to financial 
constraints, proceed with placing the new child care center in a 
location deemed unsafe. I would like to set the record straight on the 
status of this project and our position on placement of the new center.
    The safety and security of the children in our Federal buildings is 
a responsibility we take very seriously. Although the existing child 
care center in the Celebrezze building does not meet all current GSA 
child care center guidelines, a new center is presently in the design 
phase. The approved design, including the site selection, will be 
consistent with current security criteria. No final decision on exact 
location for the center has been made at this point. A site security 
survey has been completed, and we are using appropriate security risk 
factors in evaluating design options. If the approved design option 
includes prospectus level construction, we certainly will seek 
appropriate congressional authority for the project before proceeding 
further.
    I hope this addresses any concerns you may have with this project. 
It might be helpful for your Cleveland staff to have a tour of the 
Celebrezze building and potential child care sites to get a better 
understanding of the design options. Mr. James Whitlock, our Assistant 
Regional Administrator, Public Buildings Service, Great Lakes Region, 
can arrange a tour. He can be reached at (312) 353-5572.
    If you need additional information, please have a member of your 
staff contact Mr. Paul Chistolini, Deputy Commissioner, Public 
Buildings Service, at (202) 501-1100.
            Sincerely,
                              Robert A. Peck, Commissioner.
                               __________
   Statement of Joel S. Gallay, Deputy Inspector General, Office of 
        Inspector General, U.S. General Services Administration
    Mr. Chairman and members of the subcommittee: We appreciate the 
opportunity to come before this subcommittee to discuss the views of 
this Office on H.R. 809, the Federal Protective Service Reform Act. 
This bill would generally restructure the Federal Protective Service 
within the General Services Administration (GSA), grant expanded law 
enforcement authority to Federal Protective Service officers and 
investigators and make changes regarding pay structure, contract guard 
training and number of police officers.
    Our Office has done a significant amount of work in recent years 
relating to Federal building security in general and to Federal 
Protective Service operations in particular. Much of this work was 
spurred by Federal initiatives to upgrade Federal building security 
after the bombing of the Alfred Murrah Federal Building in Oklahoma 
City. We have reviewed GSA's installation of security equipment, the 
adequacy of data base documentation of security upgrades, and the 
proper usage of security enhancement funds. In the past few years, we 
have also reviewed the functions and operations of both the Federal 
Protective Service criminal investigator and contract guard programs.
    The Federal Protective Service (FPS) is responsible for protecting 
Federal employees and property in Federal buildings owned or leased by 
GSA. To meet this responsibility, FPS performs both law enforcement and 
physical security functions. The FPS work force includes uniformed 
police officers and nonuniformed officers, including criminal 
investigators and physical security specialists. FPS currently 
supervises over 6,000 contract guards. The FPS function of guarding and 
securing Federal buildings has been a part of GSA's Public Buildings 
Service (PBS) since 1949.
FPS Reorganization
    The centerpiece of the bill under your consideration today is the 
proposal to remove FPS from PBS and establish it as a separate 
operating service of GSA. This new service would be headed by a 
Commissioner who would be appointed by and report directly to the GSA 
Administrator. The Commissioner of FPS would be required to have at 
least 5 years of law enforcement experience in a command or supervisory 
position. That Commissioner, in turn, would appoint the Regional 
Directors and Assistant Commissioners for FPS. These Directors or 
Assistant Commissioners would be required to have 5 years direct law 
enforcement experience, including at least 2 years in a supervisory 
position.
    We agree that improvements are needed in the existing FPS 
structure. We strongly believe there needs to be a direct chain of 
command and line of authority between the FPS headquarters in 
Washington, D.C. and FPS field personnel. We also support the 
requirements in the bill for the FPS head,
    Assistant Commissioners and Regional Directors to have law 
enforcement experience. We believe these provisions are particularly 
critical insofar as FPS performs a law enforcement function. Law 
enforcement agencies, including those (like Offices Inspectors General) 
which operate within larger non-law enforcement agencies, are 
traditionally staffed by professional law enforcement personnel with a 
direct chain of command from the headquarters level to the field level. 
This structure assures more effective oversight of the use of law 
enforcement authorities, the development and implementation of training 
requirements, and consistent application of policies and procedures--
particularly important with respect to matters such as jurisdiction and 
use of deadly force.
    We think that most outsiders would be surprised to learn that, 
while the FPS Assistant Commissioner here in Washington is the nominal 
``head'' of the FPS, he can only issue policy guidance; he does not 
have command and control over the FPS Directors in the 11 GSA regions. 
These directors, only 2 of whom currently have law enforcement 
experience, report to Assistant Regional Administrators for PBS in the 
regions and not to FPS headquarters.
    Two of our audits serve to illustrate some of the problems inherent 
in this organizational structure. In our examination several years ago 
of the criminal investigator program within FPS, we found that criminal 
investigator activities in the field were generally operating 
autonomously, with no program accountability or measurable performance 
standards. We reported that the criminal investigators resided in a 
fragmented organization, with unbalanced staffing resources, disparate 
lines of authority and inconsistent approaches to implementing 
investigative guidelines from region to region. We also found the 
criminal investigator program lacked a useful management information 
system as well as a centralized system for identifying and developing 
specialized training needs. In addition, we noted the following 
problems:
    <bullet>  Investigator staffing varied widely between regions--from 
one criminal investigator per 641 buildings in one region to one 
criminal investigator per 42 buildings in another.
    <bullet>  Investigators in some regions reported to experienced 
lead investigators or Special Agents in Charge; others reported to 
various non-investigatory personnel.
    <bullet>  Inconsistent interpretations of law enforcement 
authorities and application of policies raised concerns of whether the 
safety of Federal employees was being compromised. Although we 
performed this review 3 years ago, our information is that the 
conditions reported in this audit are similar now and, in some cases, 
have deteriorated.
    Similar problems were noted in another audit we issued in March of 
this year, in which we examined FPS management of the contract guard 
program. As you are aware, GSA contracts with private security firms 
for both armed and unarmed guards at Federal facilities. As noted, 
there are currently over 6,000 contract security guards nationwide. FPS 
central office has been trying to create a national program with 
standards to be applied to all GSA guard contracts. FPS central office 
determined that five program areas should be standardized in all 
regional guard contracts. These included guard training, weapons and 
ammunition, guard eligibility, a basic written examination, and 
suitability and certification requirements. Our review of this program 
concluded that an absence of programmatic controls and oversight has 
led to operational breakdowns and questionable practices at the 
regional levels. Specifically we noted:
    <bullet>  Hundreds of guards were on post without valid suitability 
determinations. Guards lacked necessary to perform their duties.
    <bullet>  Armed guards were on post without any firearms training 
or they were overdue for firearms qualifications. Contract enforcement 
and oversight was not consistent. There was no consistent policy on 
post orders.
    <bullet>  Guard services were being procured by purchase orders and 
were not then subjected to critical program requirements.
    In addition to formal audits, we have addressed a number of 
situations over the last few years in which regional FPS employees have 
acted in violation of or contrary to established national policy. Those 
situations have included the following:
    <bullet>  Several instances of FPS officers carrying firearms off-
duty; one instance of an FPS officer firing a warning shot while off-
duty;
    <bullet>  A number of instances of FPS officers carrying firearms 
without having been properly qualified;
    <bullet>  FPS in one region issuing badges and credentials to non-
law enforcement personnel and issuing badges and credentials bearing 
unauthorized titles and endorsement signatures; and
    <bullet>  A FPS supervisor in a region authorizing the issuance of 
shotguns, which FPS officers are neither qualified nor authorized to 
carry.
    The clear message in these audits and other reviews is that FPS 
would greatly benefit from an organizational overhaul to improve its 
ability to effect implementation of consistent policies and procedures 
and to better handle disciplinary issues. By requiring law enforcement 
experience at both the central office at the supervisory level in the 
regions and by providing that the FPS head would appoint the Regional 
Directors in the field, H.R. 809 takes several steps toward this 
organizational overhaul. In one regard, though, we believe that this 
part of the bill could be strengthened. Currently, the bill provides 
only that the FPS head ``appoint'' Assistant Commissioners and Regional 
Directors. In order to ensure direct lines of authority between central 
office and the GSA regions, we suggest that the bill also provide that 
the Regional Directors (and Assistant Commissioners) Report to'' the 
FPS head and not the various senior regional officials..
    We do not believe, however, that FPS necessarily needs to be 
removed from PBS in order to effectuate the changes in chain of command 
for purposes of strengthening FPS's law enforcement functions. In our 
view, these changes can be made within PBS. This would achieve the 
much-needed improvements in command and control over law enforcement 
functions, while meeting the coordination and other concerns PBS has 
with the proposal to remove FPS entirely.
    Under H.R. 809, the new FPS Commissioner would serve as the ``law 
enforcement officer and security official of the United States with 
respect to the protection of Federal officers and employees in 
buildings and areas that are owned or occupied by the United States and 
under the charge and control of the Administrator.'' We believe that 
this broad designation of the new Commissioner as the ``security 
official of the United States'' for the protection of Federal buildings 
is generally unworkable and adds confusion to what are in fact 
legitimate and important security functions that are exercised by PBS. 
Security is a multi-faceted area, and involves aspects of building 
location, design, planning, and operations. Building location, design 
and planning would clearly seem generally the province of PBS. On an 
individual building operations level, building security and safety is 
the responsibility of FPS and the Building Security Committee (BSC) for 
that building, with support of the building manager and other building 
personnel.
    This bill's proposed removal of FPS from PBS and its designation of 
the FPS head as the ``security official for the United States'' leave 
unanswered several critical questions: What security functions would 
remain in PBS and what security functions would be transferred to FPS? 
Clearly building security design functions should remain the 
responsibility of PBS, while police activities and supervising guard 
forces should be the responsibility of FPS. In between, however, lies a 
gray area where the decisions on division of responsibility and 
transfer of functions are not very easy. Who would decide on the 
location of guard posts and whether they are armed posts? Who would 
decide on locations of security equipment? Currently, the BSC for each 
Federal building, which is made up of tenant representatives and a FPS 
security specialist, and is supported by the building manager, make 
many of these decisions. How would removing FPS from PBS change this 
process? Would it help or hinder the process?
    We believe that, even under the current organization, better 
coordination of the building security function is needed. We have 
concerns FPS a stand-alone service in GSA may not be an immediate cure 
for, and may even exacerbate, some of the problems we have seen in 
recent years, such as in GSA's efforts to upgrade security equipment at 
Federal facilities. There, we issued a series of alert reports in which 
we reported on repeated instances of missing, uninstalled and non-
operational security equipment and many inaccuracies in the data bases 
on the status of this equipment. Based on conditions we discussed in 
these reports, PBS reported a material weakness for purposes of the 
Federal Managers Financial Integrity Act. Ultimately, the problems 
there were a failure of coordination, between and among central office 
and the region, FPS security personnel and customer agency officials, 
and FPS and the building managers. Whatever organization may result 
from this legislation or GSA's own efforts, a strong linkage between 
FPS and PBS needs to be developed and maintained in the area of 
building security.
Law Enforcement Authority
    H.R. 809 would give FPS special police--renamed ``police 
officers''--general law enforcement authority, including the authority 
to carry firearms, seek and execute arrest and search warrants, and 
make warrantless arrests under specified circumstances. We support this 
provision. It is a much-needed clarification of the uniformed officer's 
law enforcement authorities, which, under current law, have to be 
somewhat assumed or implied. We also agree with the changes made in the 
bill from earlier versions to limit these authorities to use while on 
duty and subject to regulations approved by the Attorney General.
    The bill would make a minor change to the law enforcement 
authorities exercised by the nonuniformed offficers of FPS--renamed by 
the bill ``criminal investigators''--but appears to leave those 
authorities mostly the same as they exist currently. This leads, 
however, to an unfortunate, and likely unintended anomaly--the criminal 
investigators would exercise different, and mostly lesser, law 
enforcement authorities than the new police officers. For example, 
nonuniformed officers (or special agents) could arrest without a 
warrant only for felonies; the new police officers could arrest for 
misdemeanors and felonies. In addition, nonuniformed officers do not 
have express authority to seek and execute search warrants; the new 
police officers would. We know of no operational imperatives that would 
favor such a result. We would advocate changing the bill to give the 
new special agents the same law enforcement authorities as the new 
police officers. We would also suggest making those authorities subject 
to regulatory supervision of the Attorney General.
Contract Guard Program
    Finally, we would like to briefly mention the provision of the FPS 
bill which would require the new Commissioner of FPS to prescribe 
minimum standards of suitability for employment to be applied in the 
contracting of security personnel. In the last few years, FPS has taken 
significant steps toward creating a national program for the contract 
guards. The program devised by FPS included the development of minimum 
training standards for all guards and the creation and implementation 
of national certification guidelines and other procedures to be 
followed in all guard contracts. However, our March 2000 audit of the 
contract guard program, which we discussed earlier, shows, however, 
that many of these efforts have fallen short. As we already noted, we 
identified literally hundreds of instances where guards were on post at 
GSA-controlled facilities without the initial suitability check and, in 
some instances, despite unfavorable adjudication determinations. In 
addition, over 100 guards were overdue for required re-certifications 
and numerous background checks were in pending status for more than 1 
year.
    The critical problem here, though, is not necessarily one of a lack 
of standards--FPS has already devised minimum standards for training 
and suitability. Rather, our review indicates it is a lack of 
consistent implementation in the regions, coupled with inadequate 
resources to provide effective oversight of the guard contracts. The 
problem to be addressed, therefore, whether through this legislation or 
by the agency itself, is ensuring that policy and procedures issued by 
FPS headquarters are effectively enforced in the regions.
    In the end, regardless of how the issues regarding FPS may be 
resolved, for something as important as security of Federal employees 
and property, any restructuring must take into account the need for 
clearer lines of responsibility and accountability.
    Mr. Chairman, this concludes my formal statement. I would be 
pleased to answer any questions the subcommittee members might have.
                               __________
 Statement of Judge Jane R. Roth, U.S. Court of Appeals for the Third 
                                Circuit
    Mr. Chairman and members of the subcommittee: My name is Jane Roth. 
I serve as a judge on the United States Court of Appeals for the Third 
Circuit and as Chairman of the Judicial Conference's Committee on 
Security and Facilities. Thank you for the opportunity to appear before 
you today to discuss H.R. 809, the ``Federal Protective Service Reform 
Act of 2000.''
    In March 2000 the Judicial Conference of the United States resolved 
that H.R; 809 be amended to make clear that, should this bill be 
enacted into law, it would not diminish or interfere with the statutory 
authority of the United States Marshals Service (USMS) to provide 
security for the Federal judiciary. The USMS authority to provide 
security for the judges, judicial employees, witnesses, and jurors 
derives from 28 U.S.C. Sec. 566. The Judicial Conference recommends 
that the following amendment be added to H.R. 809 as a new Section 11:
    None of the provisions of this Act shall be construed to interfere 
with, supersede, or otherwise affect the authority of the United States 
Marshals Service to provide security for the Federal judiciary pursuant 
to 28 U.S.C. Sec. 566.
    Prior to 1982 the General Services Administration (GSA) and the 
USMS shared responsibility for security inside Federal courthouses. 
Under this shared responsibility, security in courthouses was 
inadequate. In 1982 Chief Justice Warren Burger and Attorney General 
William French Smith, in cooperation with GSA, agreed that the USMS 
should assume primary responsibility and authority to provide security 
and protective services in Federal buildings housing court operations. 
In order to assist with implementation of this agreement, the USMS 
received delegated authority from the GSA Administrator to contract for 
guards in court-occupied space. In 1983, as part of a joint judicial 
and executive branch initiative, the USMS established the Judicial 
Facility Security Program. As a result of this agreement and its 
subsequent implementation, the USMS assumed responsibility for all 
security inside courthouses and GSA retained responsibility for 
security outside courthouses.
    The judiciary believes the Judicial Facility Security Program has 
proven to be efficient and effective and that it should be continued.
    We are concerned that Section 6 of H.R. 809 could be read to 
infringe upon the role of the USMS to provide security in court-
occupied space because it gives authority to the newly created position 
of Federal Protective Service Commissioner to serve as the government's 
law enforcement of fleer in buildings under control of the GSA 
Administrator. In addition, Section 9 of the bill could be read to 
change the responsibility for contract guard employment standards. 
Currently, the USMS uses standards of suitability which it has 
developed for employment of contract guards. The judiciary wants to 
ensure that enactment of this proposed legislation will not lead to a 
change in this arrangement.
    We believe the amendment proposed by the Judicial Conference would 
only clarify the intent of H.R. 809. The report of the House Committee 
on Transportation and Infrastructure (H. Rept. 106-676) which 
accompanied the bill to the House floor states:
    This legislation enhances the FPS, and has no impact on the 
facilities secured by the Secret Service, Federal Bureau of 
Investigation and United States Marshals Service. Because report 
language is non-binding, the judiciary believes that language in the 
proposed bill itself is necessary.
    We also believe that the USMS and GSA do not support any 
interference with the authority of the USMS as found in 28 U.S.C. 
Sec. 566, and affirmatively support continuance of the Judicial 
Facility Security Program.
    I would be happy to answer any questions that you may have and, 
once again, thank you for the opportunity to appear before the 
subcommittee.
                                 ______
                                 
 Responses by Judge Roth to Additional Questions from Senator Voinovich
    Question 1. Notwithstanding the U.S. Marshals Service issue you 
discuss in your testimony, do you have any other concerns about H.R. 
809?
    Response. In our experience, the current management structure in 
which FPS reports to the PBS has worked well. Because the design and 
construction of buildings and security are so interrelated, this 
organizational structure has allowed us to address building security 
issues in a global rather than piecemeal way. We are concerned that 
H.R. 809, because it changes the organizational structure, may make it 
more difficult to coordinate security issues.

    Question 2. How is the current relationship between the U.S. 
Marshals Service and the FPS working?
    Response. We believe that, as a general rule, security 
responsibility and authority should not be bifurcated. The USMS has 
expressed agreement with this position. The USMS currently has most of 
the responsibility for interior security in buildings in which the 
judiciary is the main tenant, and FPS has responsibility for exterior 
security. The judiciary has requested that the USMS extend its 
responsibility to the exterior of these buildings, using judiciary-
funded court security officers managed by the USMS. We are of the 
opinion that such an extension will enhance security by lessening the 
problems associated with coordination, authority, and accountability 
between the two agencies. We would prefer to put responsibility for 
such an interior/exterior security coordination in the hands of the 
USMS because of the statutory designation of the USMS as the provider 
of security to the courts. To date, neither we nor the USMS have been 
able to resolve with GSA or FPS this problem of bifurcated security.

    Question 3. Are there additional issues concerning the U.S. 
Marshals Service outside the jurisdiction of this committee that you 
would like to address?
    Response. We are very concerned about the diminishing number of 
deputy marshals authorized for the Marshals Service. We have been 
advised that the marshals are currently 600 positions below what they 
were previously authorized (about 300 positions are deputy marshals). 
The loss of deputy positions compels the USMS to hire off-duty police 
officers to handle prisoners and provide courtroom security. In 
addition, the USMS has too many competing duties, such as fugitive 
apprehensions, which further distract their deputies from their 
security responsibilities. We are very concerned that the marshals have 
a sufficient number of deputies to provide the judiciary with a quality 
security program.
     In addition, we would like to see more stability in USMS 
leadership. We have seen some shifting of priorities in the USMS which 
may be attributable to the frequent changes in their leadership. We do 
not think this has served judicial security well. We think 
consideration should be given to selecting as director of the USMS 
individuals with high-level security and Federal law enforcement 
experience to serve a fixed-term political appointment, similar to the 
statutory process used to appoint the Director of the FBI. We strongly 
feel that judicial security requires a USMS that is professional, 
stable, fully staffed, well managed, and focused on its primary 
statutory mission to protect the judiciary.
                               __________
 Statement of Steven Bellew, Vice Chairman, Fraternal Order of Police 
               Federal Protective Service Labor Committee
    Good Morning Mr. Chairman, Ranking Member Baucus, and members of 
the subcommittee; and thank you for giving me the opportunity to appear 
before you today.
    My name is Steven Bellew, and I am a Federal Protective Service 
Police Officer from Dallas, Texas, and Vice Chairman of the Fraternal 
Order of Police-FPS Labor Committee. I am here today at the request of 
Gilbert G. Gallegos, National President of the Grand Lodge Fraternal 
Order of Police--the nation's largest organization of law enforcement 
professionals--to testify about the importance of enacting into law 
H.R. 809, the ``Federal Protective Service Reform Act.''
    As you know, there is a pressing need to enhance Federal building 
security. This is an issue of the utmost importance to members of this 
committee, FPS of ricers, Federal employees, and the millions of 
Americans who visit Federal buildings every day. In the wake of the 
Oklahoma City bombing and the deaths of 168 innocent people in 1995, 
many in the Congress and the Federal Protective Service sought ways to 
ensure that such a senseless loss of life would never happen again. 
This cowardly attack served as a startling reminder that the United 
States is not immune to acts of terrorism, and underscored the need for 
increased protection at America's Federal buildings provided by a 
highly skilled and qualified organization of law enforcement 
professionals. We believe this need is answered by the ``Federal 
Protective Service Reform Act.''
    In the 5-years since the bombing of the Alfred P. Murrah Federal 
Building, much has been done to enhance Federal building security and 
public safety. However, the General Services Administration and the 
Public Building Service have proven themselves unwilling or unable to 
implement those reforms which are most necessary to address several 
current problems within the Federal Protective Service. First and 
foremost, is the internal dismantling and weakening of the FPS, and the 
duties they are asked to perform on a daily basis. Over the last 
several years, The Public Building Service has moved FPS away from its 
traditional focus on patrol and response activities to placing a 
greater reliance on State and local law enforcement to act as first 
responders to critical incidents in major U.S. cities. One example of 
this, Mr. Chairman, is the current situation in New York City. In 1994, 
GSA hired approximately 35 ``term'' police officers to supplement the 
existing force and provide enhanced security during the World Trade 
Center bombing Dials. These are fully sworn and trained law enforcement 
officers who have completed the 10 week police training course at the 
Federal Law Enforcement Training Center (FLETC) in Glynco, Georgia. 
They are currently responsible for providing law enforcement services 
at the Federal Civic Center; consisting of 26 Federal Plaza, 290 
Broadway, 40 Foley Square, the U.S. Court of International Trade, 1 St. 
Andrews Plaza, the U.S. District Court, 500 Pearl Street, the Bureau of 
Prisons facility at the Manhattan Correctional Center, and Federal 
facilities in Newark, New Jersey.
    Last year, the General Services Administration planned to reduce 
the level of FPS officers in that region at the end of Fiscal Year 
1999, effective October 1. This prompted a letter from Attorney General 
Janet Reno to Mr. David Barram requesting that GSA continue to provide 
the same level of protective services in the region in Fiscal Year 
2000, at the previously authorized level. It is now 1 year later, and 
GSA is again attempting to cut the Federal Protective Service force in 
the region by roughly 50 percent While it is true that the World Trade 
Center bombing trials have concluded, there is a potentially greater 
threat posed by the commencement of the African Embassy bombing trials 
of individuals associated with the terrorist network of Osama bin 
Laden. This shortsighted move has again raised questions, including 
those from U.S. Representative Carolyn Maloney, whose constituents face 
the greatest danger from weakened security at Federal facilities in New 
York City.
    The second pressing problem is the lack of law enforcement 
experience in front line management. Under the current structure, 
Federal Protective Service officers in the various regions are overseen 
by the regional administrators of the Public Building Service. In 
addition, at least five of the Regional FPS Directors, who report to 
Assistant Regional Administrators in the 11 regions, do not have law 
enforcement backgrounds. The Assistant Commissioner of FPS, Mr. 
Clarence Edwards, exercises no direct control and has been relegated 
largely to an advisory and policymaking role, despite having over 20 
years of command level law enforcement experience. Thus the 
effectiveness of the FPS as a law enforcement agency is severely 
crippled by the fact that the Commissioner does not have direct command 
and control authority over his officers across the nation, nor over 
such vital issues as funding and personnel.
    This view has also been expressed by other Federal law enforcement 
agencies. In the Vulnerability Assessment of Federal Facilities, 
conducted primarily by the Department of Justice and the U.S. Marshals 
Service after the Oklahoma City bombing in 1995, several 
recommendations were made to upgrade the capabilities of FPS. 
Specifically, the Report noted that ``the placement of FPS within the 
organizational structure of GSA [under the Public Building Service] may 
have limited the ability of FPS to obtain the resources to assure 
appropriate security in large, multi-tenant facilities, even when the 
security needs have been well-defined.'' The Report went on to 
recommend that FPS, and not the Public Buildings Service, should be 
responsible for providing security services for GSA-controlled 
facilities, improving the standards for contract guards, and be 
responsible for the implementation and maintenance of a centralized 
physical security data base of all Federal of flee buildings. Finally, 
the heavy reliance of the General Services Administration on the use of 
contract security guards to provide the bulk of protective services in 
America's Federal buildings presents serious security concerns. As a 
whole, private contract security guards do not receive the same level 
or quality of training as do FPS police of ricers, who are required to 
attend the 10-week police training course at FLETC in Glynco, Georgia, 
followed by various in-service training programs. While the use of 
contract guards by GSA has been steadily increasing over the years, the 
number of full-time police officers has declined. This decline was 
appropriately noted in the House Transportation and Infrastructure 
Committee report on H.R. 809 (H. Rpt. 106-676, pg. 5):
    ``Since 1971, the work force of both PBS and FPS has steadily 
shrunk. In 1971, total employment of Federal Protective Officers 
(FPO's) exceeded 4,500. By 1995, the FPO force had been reduced to less 
than 500. At the same time, [the] contract guard work force had grown 
from 700, to over 2,500. The total protective force stood at 3,000, 
while the PBS inventory had grown by 70 million square feet of space, 
from 230 million square feet of space in the 1970's to over 300 million 
in 1995. The extent of protective personnel coverage had shrunk 
dramatically.'' The committee also noted that by 1995, guard functions 
in Oklahoma City had been so reduced, that a single contract guard, who 
also provided protection for two other Federal buildings, was 
responsible for patrolling the Murrah Building.
    How does this legislation address the problems which have been 
outlined above? The primary goal of H.R. 809 is simple: to reestablish 
the Federal Protective Service as an elite Federal law enforcement 
agency with a well-trained, professionally led, and highly motivated 
cadre of officers. This legislation correctly addresses the current 
problems within FPS; namely the status of the agency within the General 
Services Administration, the need for additional fully sworn and 
qualified police officers, unclear lines of authority and jurisdiction, 
and non-competitive salary and benefits for its of ricers.
    H.R. 809 will enhance the safety of America's Federal buildings in 
a number of important ways. First, the legislation provides for the 
separation of FPS from the Public Building Service--the Federal 
Government's real estate management agency--and elevates the agency 
within GSA. By placing the Federal Protective Service outside of the 
Public Buildings Service, the legislation will ensure that law 
enforcement is given the same level of consideration as property 
management, and not as a secondary concern of PBS. There are several 
benefits to this approach, many of which were outlined in a 1996 GSA-
requested Arthur Andersen study, entitled Federal Operations Review 
Model (FORM. Federal Protective Service. Conducted by a review team 
which included several GSA employees, the study concluded that of the 
recommendations for FPS contained in the 1995 Vulnerability Assessment, 
``elevation is most advantageous to the government as it will provide 
for costs savings as well as enable FPS to be self-financing.'' Having 
recommended that FPS be elevated to a Service Line organization 
reporting directly to the Administrator of GSA, the study further 
concluded that this would recognize the priority of security in the 
Federal environment, ensure a direct funding mechanism for Federal 
security, provide savings on overhead costs, and streamline the 
management and reporting structure.
    The Fraternal Order of Police continues to believe that separation 
and elevation of the Federal Protective Service is the only sure way of 
improving the effectiveness and capabilities of the agency. Not only 
would this move establish direct command and with a definitive 
explanation for the agency's refusal to implement this provision, the 
OIG concluded that:
    <bullet>  GSA management did not support the requirement for a 
larger uniformed protective unit, evidenced by the fact that whenever 
funding and FTE positions became available, these additional resources 
were directed into an alternative protection program even after P.L. 
100-440 was enacted;
    <bullet>  While agency management did not seek to increase its 
uniformed police force, GSA made no effort to inform or attempt to work 
with Congress to get the law changed until 1995;
    <bullet>  Despite the fact that Senate Report 100-387 (June 17, 
1988) directed GSA to fund the hiring of additional Federal Protective 
Of ricers (FPO) using funds appropriated for real property operations, 
GSA used available funds to hire Physical Security Specialists and 
increase contract guard services;
    <bullet>  In Fiscal Year 1990, the evidence indicated that the 
agency's internal budget directives did not provide for an increase in 
regional FPO positions. Not only were the FPO ranks not increased, but 
GSA also permitted the number of officers to decline significantly; and
    <bullet>  ``The fact that responsible agency managers knew of the 
law and neither took action to comply with it nor reported non-
compliance during past years' Federal Managers' Financial Integrity Act 
(FMFIA) processes was in itself a breach of the FMFIA and a reportable 
condition. Moreover, the fact that such a large circle of management 
was aware of the non-compliance issue and did little to address it 
calls into question the general state of the management environment 
which permitted this to happen.''
    In addition to establishing FPS as a premiere Federal law 
enforcement agency and ensuring an increased number of officers to 
complete the agency's important mission, H.R. 809 has several other 
provisions vital to the future of the Service. It will clarify and 
enhance the authority of FPS of ricers, to include the carrying of 
firearms, petitioning Federal courts for arrest warrants, and executing 
those warrants; and it will require that the Commissioner of FPS 
establish minimum standards and training requirements in contracting 
for security guards.
    In the end Mr. Chairman, this is not a pay raise bill and I do not 
know of any direct benefits which will accrue to FPS officers by its 
passage. H.R. 809 is an officer safety issue, supported by law 
enforcement professionals who take a great deal of pride in the work 
they do and the agency they work for. We want a strong Federal 
Protective Service. While we would agree that how you incorporate 
facility protection and public safety into the design of Federal 
buildings is a joint real estate--law enforcement function; the actual 
delivery of the law enforcement service is an inherently governmental 
function which requires direct oversight from law enforcement 
professionals. Those of us who put our lives on the line every day to 
ensure the safety and protection of Federal employees and facilities 
believe that H.R. 809 is an important step toward improving the 
capabilities of the Federal Protective Service to meet the security 
challenges of the 21st Century. Passage of this legislation is a top 
priority of the Fraternal Order of Police, and we hope to work with 
members of this subcommittee to ensure its enactment before the end of 
the 106th Congress.
    Thank you again, Mr. Chairman, for allowing me the opportunity to 
address you this morning. I would be happy to answer any questions 
which you may have.
                                 ______
                                 
     Fraternal Order of Police, Federal Protective Service,
                                    New York, NY, October 11, 2000.

Gilbert G. Gallegos,
National President,
Fraternal Order of Police,
309 Massachusetts Avenue NE,
Washington, DC 20002.
Dear President Gallegos: In response to a request from Senator 
Voinovich for more information on the Federal Protective Service Law 
Enforcement Security Officer (LESO) program, I have compiled the 
following information for your review.
    The LESO position was create by the Public Building Service to 
allow FPS officers the opportunity to be elevated to a position with 
higher pay. Even though this was the stance of PBS, many Regions failed 
to recruit FPS officers for the LESO positions and went directly to 
college campuses and recruited people with no police experience.
    PBS established the LESO position with the intent to incorporate 
law enforcement and physical security. The result has been most LESO 
positions are announced as Physical Security Specialist (LESO). LESO 
personnel, despite guidelines from the Assistant Commissioner of FPS to 
wear their uniforms while on duty, still report to work and perform 
their duties in civilian attire.
    PBS mandated that LESO's perform 51 percent law enforcement duties 
and 49 percent physical security duties. The reality is that LESO's 
rarely perform law enforcement duties and spend most of their time 
conducting physical security surveys. Also, the LESO position was 
supposed to augment the FPS uniform force of police officers. The fact 
is that as LESO's are hired and sent to their duty stations, the FTE's 
are not replaced, causing a reduction in uniformed personnel in major 
metropolitan areas.
    One disturbing factor with the LESO program is that the LESO's, who 
are supposed to be primarily law enforcement officers, do not report to 
a law enforcement chain of command. Instead they report to a 
supervisory physical security manager, thus further weakening any ties 
between security and law enforcement. Another related, but sad fact is 
that in many PBS Regions, the Regional FPS Directors are attempting to 
have uniformed officers report to physical security specialists instead 
of uniformed police supervisors.
    LESO's were supposed to be deployed to areas that have a large 
concentration of Federal employees and buildings, but out of the major 
(core) metropolitan cities. The fact is that a majority of the LESO's 
are being stationed in major metropolitan cities.
    Finally, one of the questions that was asked at the Senate 
Subcommittee hearing, was why more officers were not interested in the 
LESO position. The answer to that question is that most of the police 
officers believe that, since PBS has lied to them on a continuous and 
recurring basis, they have lost the moral support of the officer rank 
and file. This is one of the many reasons why we believe it is 
necessary to separate FPS from PBS.
            Sincerely,
                           Steven S. Bellew, Vice-Chairman,
                                         Fraternal Order of Police,
                                        Federal Protective Service,
                                              DC-1 Labor Committee.
                               __________
Statement of Kenneth T. Lyons, President, International Brotherhood of 
                            Police Officers
    Mr. Chairman, members of the subcommittee, my name is Kenneth T. 
Lyons, president of the International Brotherhood of Police Officers. 
The International Brotherhood of Police Officers (IBPO) is the largest 
police union in the AFL-CIO. On behalf of the entire membership of the 
IBPO, I wish to thank you for allowing me to submit for the record a 
statement regarding H.R. 809, the Federal Protective Service Reform 
Act. My first point will be to reaffirm our commitment to provide 
quality police and security service to the Federal community and the 
general public. I only wish that I could be standing before you in 
front of the Murrah Federal Building Memorial instead of this committee 
room, so that my words would have more impact and drive home to all 
that we must work together to ensure that the tragedy of Oklahoma and 
the ones since, are not repeated.
    The IBPO is proud of its members who work for the Federal 
Protective Service (FPS). In addition to providing protection to 
hundreds of thousands of Federal employees, these dedicated law 
enforcement officials are literally on the front line when it comes to 
safeguarding the more than 8,000 GSA-operated buildings. As you know 
Federal Protective Service officers were the first to respond to the 
World Trade Center bombing in New York City and were also active in the 
investigations of the Oklahoma City bombing along with the Olympic 
Centennial Park explosion. Mr. Chairman, terrorist threats toward the 
Federal Government are real, and increasing. Our vocation has become 
increasingly more violent and dangerous. We can only expect more 
attempts of terrorism in Federal buildings that service the general 
public.
    The IBPO wishes to thank Congressman Traficant for introducing H.R. 
809. This legislation will finally recognize the Federal Protective 
Officer (FPO) as a legitimate law enforcement professional. As 
president of the IBPO, I can say without exception that an officer who 
is highly motivated, properly trained and adequately compensated, must 
be the first line of defense against crime and terrorism. It is the 
police officer who has to approach the irate visitor or the upset and 
often violent client, and it is the police officer whose life will 
ultimately be on the line. Every day FPS police officers go that extra 
mile in the pursuit of their duties and quite frankly they do it 
because of personal motivation and dedication not for compensation 
which is woefully inadequate when compared to other law enforcement 
agencies.
    Congressman Traficant's legislation will address the many issues 
facing security at our Federal buildings. H.R. 809 will increase the 
number of full-time FPS officers from 673 to 730. While this number is 
below what Congress mandated in 1998, which was repealed a few years 
later, the increase will demonstrate to the public that threats to 
Federal property and personnel are real. Regarding contracting out of 
FPS officers, it should not surprise anyone on this subcommittee that 
our organization has long opposed wasteful, costly and inappropriate 
contracting out of inherently governmental functions. We once again 
reiterate that the explosion in contracting out of services has cost 
the American taxpayer millions of dollars, diminished government's 
expertise in key areas, and reduces its ability to address the problems 
of the future. Ill-trained, non-citizen contract guards with guns 
should not be in a position of protecting government buildings.
    GSA has pushed this concept too far, a reasonable amount of 
civilian contract guards may be necessary, but to outnumber FPS police 
officers by almost 20 to 1 is irrational as well as dangerous. If the 
government continues the practice of contracting out of police officers 
then these individuals should go through the same procedures and 
standards that FPS officers go through. All of us know that security 
guards are subject to the laws and regulations of the States in which 
they are employed. Many States don't even require training for guards 
equipped with weapons. Some State background checks are suspect at 
best. To upgrade these private security guards, we support the 
provision of H.R. 809 that prescribes standards for the contracting of 
security personnel for buildings and areas that are owned or occupied 
by the U.S. Government.
    These standards shall ensure that contract employees receive 
adequate training along with being subject to the same background check 
requirements as Federal Protective Service officers. These individuals 
are responsible for the safety and well-being of thousands of Americans 
who work and do business in GSA-operated buildings across the country. 
We owe it to our fellow citizens that professionals protect their 
workplace.
    What concerns the IBPO is that the GSA never wanted a police force 
and will go to great lengths to desolve the FPS. They are happy with 
the ``counterfeit cops'' namely, civilian contract guards, who hoodwink 
the general public, and government employees.
    The IBPO believes that the GSA hasn't the desire, nor the will to 
maintain a viable police force. While we strongly support the provision 
of H.R. 809 that would allow Federal Protective Service to be a free-
standing service within the General Service Administration, we urge 
Congress to contemplate transferring our officers to another agency 
that has the know-how and savvy to administer police.
    The IBPo also supports increasing pay for the Federal Protective 
Service officer. The Office of Personnel Management (OPM) has 
determined that FPS officers are police officers but they are not 
considered ``law enforcement.'' With law enforcement status comes 
better pay and retirement entitlements. Yet our officers are being 
denied the same benefits that other uniformed Federal law enforcement 
officers have. We face the same inherent dangers that other Federal law 
enforcement do but are not recognized for our work and commitment to 
the safety of our fellow citizens.
    Mr. Chairman, thank you again for this opportunity to submit a 
written statement on H.R. 809. The IBPO looks forward to working with 
this subcommittee on the many issues facing FPS police officers. This 
concludes my written statement.
                               __________
     Statement of Alfred Maldonado, Representative of the National 
                    Federation of Federal Employees
    Thank you for allowing me the opportunity to submit this statement 
on behalf of the National Federation of Federal Employees (NFFE) in 
support of H.R. 809, the Federal Protective Service Reform Act. This 
bill, once signed into law, would drastically improve the Federal 
Protective Service (FPS) by removing it as a division within the Public 
Building Service (PBS) and making it a separate service of the General 
Services Administration (GSA). In doing so, this legislation will 
ensure that FPS is managed by law enforcement professionals and not PBS 
administrators, who are untrained and inexperienced in the fields of 
Law Enforcement and Physical Security. This legislation would also 
expand the manpower and law enforcement authority of the FPS by 
allowing FPS Police Officers the ability to investigate crimes against 
GSA facilities and the people who frequent those facilities. 
Additionally, H.R. 809 would improve the quality of contract security 
guards who serve as the eyes and ears of the FPS by mandating training 
requirements of these guards across the Nation.
    As you are well aware, and in these proceedings are often reminded, 
168 men; women, and children lost their lives on April 19, 1995 in the 
Murrah Building in Oklahoma City. Indeed because of mismanagement; FPS 
left this building a very soft target for domestic terrorists Timothy 
McVeigh and Terry Nichols by significantly reducing it's FPO force and 
by assigning only one contract security guard to patrol the three 
buildings in that area. We cannot allow such a tragedy to occur again. 
H.R. 809 is a heroic piece of legislation, aimed at stopping domestic 
terrorism from touching our Federal facilities and the men, women, and 
children who frequent them.
    NFFE's position on this bill can best be illustrated by first 
pointing out the problems in the current way PBS and FPS operates. I 
will use the San Diego area, which happens to be my area of 
responsibility; as an example. Please allow me to begin by telling you 
a little about what I do for a living.
    The San Diego FPS Office serves all of San Diego, Imperial and Yuma 
Counties, and parts of Riverside County. There are three Federal 
Protective Officers (FPS Police Officers) who patrol from San Diego, 
California to Yuma, Arizona; and up to Palm Springs, California; over 
17,000 square miles. Unfortunately, due to the lack of manpower we are 
just unable to serve the Arizona area, except in rare situations. Of 
the facilities we patrol, six of them are U.S. Border Stations. One of 
those, the San Ysidro Border Station, which separates Tijuana, Mexico 
from San Diego, California, is considered the busiest land port of 
entry in the world. It is estimated that 43,000 automobiles and 73,000 
pedestrians pass through the port on an average day. Though the FPS 
maintains a contract guard force on the site, it does little to curb 
the number of criminal incidents in and around this large GSA facility. 
The San Diego Police Department has adopted a general ``hands-off'' 
policy at this facility, due to the jurisdiction and physical control 
issues, insisting that the U.S. Government police it's own property. 
Thus, FPS is primarily responsible for policing this facility.
    On any given Friday and Saturday night, 9,000 to 10,000 pedestrians 
across the border into Tijuana to drink and engage in the Tijuana 
night-life. Most, if not all of them are not legally able to drink in 
the United States. Usually about 6,000 to 8,000 of them return under 
the influence of alcohol or drugs, or extremely intoxicated. Many of 
the people are in violation of Federal and State public intoxication 
statutes: Assaults, robberies and sex offenses in and around this GSA 
facility are very common. Shootings and stabbings are not uncommon. 
Often, U.S. Government employees such as INS and U.S. Customs 
personnel-are assaulted or have threats made against their lives. 
Generally, I work the weekend nights alone or with another officer. I 
spend the remainder of my week catching up an the vast stacks of 
paperwork from my weekend nights.
    As you can imagine, of an international border crossing of this 
size, in such close proximity to major cities, there are a large number 
of fugitives crossing to and from Mexico on a regular basis. Due to the 
hard work and extra effort of both FPS Police Officers and Immigration 
and Naturalization Service (INS) inspectors at the San Ysidro port of 
entry we have apprehended over 500 felony fugitives. These fugitives 
have been wanted by Federal and State law enforcement agencies from 
across the country for crimes such as murder, arson, child molesting, 
robbery and drug trafficking. We have arrested members and associates 
of the Mexican and Russian Mafias, and international drug cartels. 
Until 3 years ago FPS presence was vacant from the San Diego area for 
approximately 13 years due to budget cutbacks and poor staffing 
decisions within PBS. Sadly enough, before the re-establishment of FPS 
Police Officers in the San Diego area, many of these dangerous 
fugitives were just set free from INS or Customs custody because they 
were either not identified as fugitives or San Diego Police officers 
were not available to respond. Although this fugitive apprehension 
effort takes up a large portion of our time and resources, we consider 
it one of our primary responsibilities. In turn, we have the 
satisfaction of knowing that many dangerous felons have been taken off 
the streets and the citizens of the United States are much safer 
because of our efforts. It is also important to remember that we are 
doing this with only three FPS Police Officers. If we had more officers 
and resources, this program could be expanded and undoubtedly net many 
more criminals.
    Overall, we are responsible for roughly 160 separate facilities. We 
do our best to locate new GSA buildings or document vacant GSA 
buildings as we patrol this large area. However, it's not uncommon for 
us to receive a call for service for a facility that we have never been 
to, and didn't know existed. This problem of identifying our properties 
exists because PBS does not communicate adequately with FPS. Keep in 
mind that the Government Agencies in these buildings pay for FPS 
service by the square foot regardless of whether they are receiving it 
or not. So why are GSA facilities receiving little to no FPS service? 
There are two simple answers to that question: (1) Because there is 
very little communication between PBS and FPS, and (2) there is no 
accountability for PBS and FPS management officials to do so in the 
first place. In other words, even if PBS were asked to work with FPS, 
there are no centralized mechanisms in place to ensure this will 
happen. So where is my proof that this is happening? I work that proof 
daily in the San Diego area with two other brave souls, who literally 
put their lives on the line in what is considered the toughest 
assignment in FPS. In the San Diego office we make mare arrests and 
have more violent crimes and thefts occurring than any other region 
within FPS. Unfortunately, because PBS and FPS does not communicate 
properly or because both lack any sense of accountability, there are 
still only three FPS Police Officers working in the San Diego region. 
PBS and FPS have been aware of this problem for several years now, 
despite the fact persons on GSA property in the San Diego area have 
been violently attacked and robbed, despite the fact that marry 
Government employees and persons who visit GSA facilities in San Diego 
have been viciously assaulted, despite the fact that an FPS Police 
Officer was almost killed in the line of duty.
    These are not just manpower issues These are examples of inadequate 
or incompetent management decisions within FPS or the inability of the 
PBS to efficiently manage FPS. Currently, there are no requirements for 
FPS supervisors or administrators to have any security or law 
enforcement experience in order to be appointed. In some regions, FPS 
administrators have been appointed without training or experience in 
security or law enforcement. Thus, FPS has been weakened. because of 
such poor appointment practices.
    H.R. 809 would change this. and require that all FPS Administrators 
be qualified to oversee such an important mission as the safety and 
security of GSA buildings and the people they house. It would require 
that the administrators have a minimum of 5 years of experience in a 
law enforcement command position. This would ensure that FPS operates, 
as it should, as a professional Federal law enforcement and security 
agency. H.R. 809 would require that the FPS maintain a minimum of 730 
FPS Police Officers nationwide. Though this number is still far too few 
to adequately patrol and protect the vast number of GSA buildings in 
the United States, it is significantly more than the 500 FPS Police 
Officers left in the FPS in 1995.
    Since the tragic bombing in 1995, the FPS has done much to upgrade 
physical security procedures, but little to upgrade its law enforcement 
capacity. In fact, FPS law enforcement abilities are currently 
inadequate. Recently, the role of the FPS Criminal Investigator changed 
from that of criminal investigation to one primarily of criminal 
intelligence gathering. Though this indeed is an important function, 
PBS and FPS administrators have done nothing to fill the gap in 
criminal investigations left by this change.
    Currently only FPS Criminal Investigations are authorized to follow 
investigations off GSA-controlled property. FPS Police Officers are 
only authorized to enforce laws and investigate crimes on GSA 
facilities. This means that when an investigation leads an FPS Police 
Officer off GSA property, the investigation ends there. Because of the 
new role of the criminal investigator, they often do not have time to 
carry these investigations further. Additionally, PBS has stressed for 
FPS to rely heavily on local law enforcement agencies to police these 
facilities. Neither PBS nor FPS are willing compensate these local law 
enforcement agencies to do this. Oftentimes, local law enforcement is 
already taxed with a heavy burden outside of GSA facilities. These 
often overworked local agencies have expressed reluctance to provide 
service to Federal facilities which are supposed to be policed by the 
FPS.
    For example, earlier year, an employee of the Veterans 
Administration had her purse stolen at a GSA-controlled VA Outpatient 
Clinic in San Diego. An FPS Police officer responded to her call 
promptly, and conducted his investigation but was unable to catch the 
culprit. The necessary reports were processed and the officer did as 
much as he could legally do. Several months later, the theft victim 
contacted the FPS again with a frantic plea for help. It turned out 
that she had not canceled the checks stolen with her purse, and they 
were being forged and used in various businesses in the San Diego area 
for thousands of dollars, She contacted the San Diego and El Cajon 
Police Departments, but found they were not concerned about the 
incident as it stemmed from a theft which occurred in a Federal 
facility, and which was investigated by the FPS. Unfortunately, the FPS 
Police were not authorized, nor empowered to continue the 
investigation, as the subsequent crimes occurred off of GSA property, 
although the string of forged cheeks would have bean a tremendous help 
to identify the purse thief. What began as a petty $150 theft evolved 
into a $3,000 felony, and it went partially investigated and unsolved. 
Essentially, this U.S. Government employee, a victim of a crime, was 
left unassisted as she pleaded with her bank to forgo the debts 
incurred by the thief.
    H.R. 809 would increase the authority of FPS Police Officers, 
allowing them to continue such investigations leading off GSA property, 
to investigate these crimes fully, and pursue these criminal predators 
until they are caught.
    The recent introduction of the law Enforcement Security Officer 
position by the Public Building Service into the Federal Protective 
Service has been billed by Mr. Peck and Mr. Edwards as the new ``core'' 
position in FPS. The ``LESO'' is supposed to be a ``jack of all 
trades'' in physical security and law enforcement. The target pay grade 
of the FPS Police Officer is GS-07. The target pay grade of the LESO is 
GS-11, as is the target pay grade of the Physical Security Specialist. 
Law Enforcement Security Officers carry guns and have arrest authority, 
as do properly trained Physical Security Specialists. At the target 
level the Law Enforcement Security Officers' duties will lean more 
toward physical security in plain cloths than uniformed law 
enforcement. The LESO series is a GS-080, which is the same as the 
Physical Security Specialist. Do we see a trend here? It seems as if 
PBS has essentially tempted FPS Police Officers with little more than 
money to desert the law enforcement field to become Physical Security 
Specialists. Ideally, PBS would like the entire FPS to be comprised 
entirely of these Law Enforcement Security Officers, all of whom could 
be contracted out, as the functions of a GS-080 physical security 
specialist are not inherently governmental. The NFFE strongly opposes 
this program, and this practice. This program is a ploy to get the PBS 
real estate managers out of the practice of managing law enforcement, 
because they know they are not qualified to do so.
    Recently, FPS has adopted a ``new'' philosophy they term ``customer 
oriented policing.'' The ideal goal of this philosophy is that it gets 
FPS Police Officers more in touch with the tenants in the buildings, to 
deter crime rather than to be strictly reactive. There are 582 FPS 
Police Officers and Law Enforcement Security Specialists nationwide. If 
we average that by State, that would be less than 11 per State, but 
that wouldn't be accurate at all, because almost half of those officers 
are stationed in Washington DC. This might leave an average closer to 
6, or maybe 5 per State. Some fairly large States such as Nevada, New 
Mexico and Arizona have no FPS Police Officers or Law Enforcement 
Security Officers stationed anywhere in the State, but tenant Agencies 
in GSA buildings in these States pay for FPS service by the square 
foot. How how does it seem realistic that FPS Police Officers can deter 
crime by proactively patrolling GSA facilities? It is not possible. 
This-program is little more than a farce, or even a lie by the PBS to 
create the illusion of proactive law enforcement concerns.
    H.R. 809 is a good piece of legislation. It is a heroic piece of 
legislation. It will serve only to strengthen the Federal Protective 
Service whose primary responsibility is the safety and protection of 
Federal facilities and the people who work in and visit them.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 

</pre></body></html>
